<html>
<title> - RECREATION FEE DEMONSTRATION PROGRAM</title>
<body><pre>[Senate Hearing 108-574]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-574

                  RECREATION FEE DEMONSTRATION PROGRAM

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY ON IMPLEMENTATION OF THE RECREATION FEE DEMONSTRATION 
   PROGRAM BY THE FOREST SERVICE AND BUREAU OF LAND MANAGEMENT, AND 
                    POLICIES RELATED TO THE PROGRAM

                               __________

                             APRIL 21, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-431                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............    27
Anderson, Ted, Commissioner, Skagit County, WA, on behalf of the 
  National Association of Counties and the Washington State 
  Association of Counties........................................    31
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Bray, Susan, Executive Director, the Good Sam Club, Ventura, CA..    40
Burns, Hon. Conrad, U.S. Senator from Montana....................     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Phillips, Edwin, Americans for Forest Access, Big Bear City, CA..    50
Raney, Robert, Montant State Parks Foundation, Livingston, MT....    44
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    16
Scarlett, P. Lynn, Assistant Secretary for Policy, Management and 
  Budget, Department of the Interior.............................     6
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     4
Wilgus, Carl, Treasurer, Western States Tourism Policy Council...    33

                                APPENDIX

Responses to additional questions................................    59

 
                  RECREATION FEE DEMONSTRATION PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 21, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon everyone. The Subcommittee on 
Public Lands and Forests of the full Committee on Energy and 
Natural Resources will be in session.
    I want to welcome all of you to this oversight hearing on 
the Department of Agriculture and the Department of the 
Interior's implementation of the recreation fee demonstration 
program. I especially want to welcome Under Secretary Mark Rey 
who is here to represent the U.S. Forest Service and Assistant 
Secretary Lynn Scarlett who is here to represent the Department 
of the Interior.
    To start, you need to know that I will be charging a basic 
hearing users fee for the opportunity to participate in this 
hearing today.
    [Laughter.]
    Senator Craig. For those of you who have received water and 
a name tag, there will be an enhanced amenity hearing fee 
charged.
    [Laughter.]
    Senator Craig. Do not worry. 80 percent of what we collect 
will go back into making this room a desirable and enjoyable 
place to have this unique experience.
    [Laughter.]
    Senator Craig. Well, a few of you out there have got to be 
saying Senator Craig has lost his marbles. Why should I have to 
pay a users fee to come to Congress to testify? Why should I 
have to pay a users fee to come to listen to a hearing? The 
answer is with a hearing user fee, I can ensure you that the 
hearing room will be well maintained and it will be a more 
enjoyable experience in the future.
    I think by now I have made my point about how people feel 
when they are asked to pay a users fee in certain situations, 
especially to enter the Federal domain, and that is a 
discussion that we are once again having here today.
    I want to welcome our public witnesses who have traveled 
from Montana, Washington State, California, and Idaho to help 
us understand the recreation fee demonstration program. I 
especially want to welcome Carl Wilgus, who is the 
administrator of the Division of Tourism in the State of Idaho. 
Carl, I am looking forward to your testimony in what I hope 
will be a lively hearing.
    I do want to set the stage for this hearing and why I 
believe that we are holding the hearing today.
    Through the mid-1990's, the U.S. Forest Service and the BLM 
timber receipts were sufficiently large enough that the 
agencies were able to accommodate most of their resource 
programs' needs, including paying for fire emergencies without 
the disruption that has occurred in recent years. They did not 
need or want money because the Federal agency itself was 
generating enough resources.
    Despite congressional increases in the Forest Service's 
budget from $3 billion in the early 1990's to nearly $5 billion 
in the 2000 budget, there are still individual programs that 
are in need of additional funding. Many in Congress, myself 
included, attempted to make those who oppose timber harvesting 
understand the implications of the declining timber revenues. 
Even some of the organizations in this room would not listen, 
nor did they care.
    I view the agency's request for the permanent recreation 
fee to be a manifestation of our shift away from a timber-based 
Forest Service budget. It is very likely the beginning of a 
series of several requests for direct funding from other 
programs and land management agencies, and I think we should 
carefully assess what that means before we make any of these 
changes permanent.
    Today we are going to hear stories about dazzling successes 
in the recreation fee demonstration program, as well as stories 
of abject failure on the part of the recreation fee 
demonstration program. We have seen some recreation areas that 
have truly benefited from the program and its unique ability to 
maintain funding at the site where those fees are collected. 
But we have also seen some behavior on the part of some land 
managers, as well as from some regional administrators, that I 
believe are questionable at best.
    Everyone knows that I am not a fan of the user fee for 
entering a national recreation area. Over the years, the 
Sawtooth National Recreation Area in my State of Idaho has 
demonstrated a wide range of uses for this program and the 
public has not always agreed with them. Many times I too do not 
agree with the decisions that the SNRA makes, but I do feel 
they are now trying to listen to the public and are trying to 
institute positive changes in the program. They deserve credit 
for that recognition.
    It is my understanding that the Federal agencies believe 
the continuation of this program is critical. I have a number 
of concerns that I think have to be addressed before I can 
become an advocate of a recreational fee program. I also 
believe there must be a number of external controls that need 
to be implemented before I can become a supporter of the 
program, and I will be happy to discuss that with the 
administration as we move forward on this issue.
    Most importantly, I want all to know that I will not 
support a basic entrance fee to any national forest, BLM 
district, U.S. Fish and Wildlife Service, or Bureau of 
Reclamation lands, whether or not it is called an entrance fee 
or basic fee or by any other name. I believe it simply has to 
be called a users general tax.
    Having said that, I would support--or I should say I would 
not oppose in some instances--the collection of fees at 
specific recreationsites, campgrounds where an agency has 
developed specific amenities that are desired by the recreating 
public and that the recreating public expects.
    I hope that all the witnesses will expend their time today 
helping us understand how to make the recreation fee program 
workable. To the extent that you can tell us, it will help us 
in the future as we deliberate on this issue. If the local 
community does not see the benefit, then I think Senators like 
myself are not likely to see the benefit either, and in the 
long run, the program will be taken away.
    We will keep this hearing record open for 10 days for any 
additional comments.
    And I am pleased that my colleagues have joined me this 
afternoon. Let me turn first to the ranking member of the full 
committee, the Senator from new Mexico, Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much for having the 
hearing, Mr. Chairman.
    This is an issue that, as you know, we have had some debate 
on already this year. We passed legislation earlier this year 
to authorize a permanent fee authority for the National Park 
Service but for no other agency. It was my thought that we 
needed to look at appropriate authority for the rest of the 
agencies as well.
    I have been concerned that this is authority that was 
enacted as part of the appropriation bill initially 8 years 
ago. It has been renewed as part of the appropriations process. 
We have never fulfilled the responsibility of an authorizing 
committee to really look at this and put appropriate limits on 
fees being charged; if we believe that that is the right thing 
to do. I think that your statement would lead me to conclude 
that you certainly believe that.
    So I think that we need to have this hearing. We need to 
hear the testimony and learn from the various agencies what 
they think is appropriate. I think just allowing a 
reauthorization of the current fee demonstration program, which 
really puts no limit on what is charged, as I understand it, is 
not a responsible course for us to follow, and particularly 
that is true now that we have enacted legislation relevant to 
the National Park Service. So I look forward to the testimony, 
Mr. Chairman.
    Senator Craig. Well, thank you very much for those 
comments. I too agree. That is why we are holding this hearing 
today and we may well hold others as we shape this issue.
    Senator Burns, any opening comments?

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. I will submit my statement.
    I, like you, always get a little nervous whenever we start 
paying twice for our land and for our services we charge twice. 
And so I am a little bit nervous and I would associate myself 
with your remarks.
    I thank the chairman for holding this hearing.
    By the way, we have a good representative from Livingston, 
Montana, over here. It is nice to see him. He served in the 
Montana State legislature. He never voted very many times the 
right way, but nonetheless represented his constituency well.
    [Laughter.]
    Senator Burns. Thank you.
    [The prepared statement of Senator Burns follows:]

         Prepared Statement of Hon. Conrad Burns, U.S. Senator 
                              From Montana

       IMPLEMENTATION OF THE RECREATION FEE DEMONSTRATION PROGRAM

    Thank you, Mr. Chairman, for holding this hearing today. I also 
want to thank the witnesses, especially Mr. Robert Raney, who is here 
from Livingston, Montana.
    This hearing is a follow-up as part of the discussion on S. 1107, 
the Recreational Fee Authority Act that authorizes the National Park 
Service to collect fees for admission and the use of services and 
facilities after analysis by the Secretary.
    In reviewing the Administration's testimony, I am encouraged they 
are beginning to hear the public outcry over user fees when the Forest 
Service Blueprint recognizes there should be no charge for driving 
through national forests, wildlife refuges, or BLM public lands. 
Involving the local community in fee project design and where the fees 
are invested is another step in the right direction.
    However, I am still worried when Federal agencies want to develop 
ways to charge access fees for Federal lands and facilities. The 
taxpayers should not have to pay twice to use their Federal lands.
    And I am concerned that definitions of enhanced services, fees for 
basic recreation sites, including day use sites, and expanded 
recreation sites can and will be misused by the agencies in their 
effort to fund their recreation program.
    Finally, I am always nervous when the Federal government wants the 
public to pay a second time for using their public lands and we need to 
proceed carefully with any proposals for other Federal agencies.

    Senator Craig. Thank you, Conrad.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I appreciate your 
willingness to schedule this hearing to review the recreation 
fee demonstration program administered by the U.S. Forest 
Service and the Bureau of Land Management.
    The recreation fee demonstration program provided almost 
$5.8 million for maintenance, visitor services, and resource 
protection on Federal lands in Oregon in 2003.
    However, this program has not been popular with the public, 
as you have noted, Mr. Chairman. The early administration of 
the program was very problematic in my State, particularly in 
those areas where the Forest Service and BLM lands are 
intermingled and recreationists were expected to get multiple 
passes.
    I recognize the efforts of Federal agencies to address 
these problems and I think that improvements have been made. 
They are to be congratulated. The creation of the Oregon-
Washington pass and reducing the number of sites where fees 
apply have all been helpful and I also appreciate the 
administration's establishment of the Recreation Fee Council 
and its ongoing efforts to resolve the public's concerns with 
the fee demonstration program.
    That being said, I am not yet prepared to support efforts 
to make this program permanent. I would say to our 
representatives I had a great meeting with some of your folks 
yesterday and suggested a way to make this a little bit more 
sellable, and I hope those can be responded to.
    The Federal appropriations for the Forest Service for 
recreation have increased from $267 million in 1996 to $390 
million in 2002. This is much higher than the rate of inflation 
and should provide sufficient funds to maintain trails, develop 
recreationsites on Forest Service lands, and more.
    Further, it appears that the Forest Service is spending 
almost $10 million for administration of the fee demonstration 
program which collected only $38 million nationwide in 2003. I 
remain concerned that this fee program and other future fees 
will be increasingly relied upon for maintaining our public 
lands as revenues from resource production continue to decline. 
Such fees were never necessary or even contemplated when the 
timber sale program was generating more revenue. Neither were 
safety net payments to schools.
    Candidly the timber sale program financed a whole host of 
activities and facilities on BLM and national forest lands, 
provided significant funds to counties, and created jobs in 
rural communities. In 1990, Forest Service timber receipts 
nationwide were over $1 billion. By 2002, this number had 
dropped to $164 million. It is only since timber revenues have 
been decimated that we have resorted to these other programs to 
supplement funding for public lands and to make local 
governments whole.
    I look forward to hearing from the witnesses, Mr. Chairman, 
but I do note with some disappointment that our friends on the 
Democratic side tomorrow I guess are scheduled to go beat up on 
the President for his efforts to try and give some concern to 
rural issues that we are talking about here. I hope the public 
understands that environmental protection is not free. It comes 
at a very high price, and what we are doing in our State, the 
State of Oregon, is growing a lot of timber, harvesting little, 
and burning tremendous tracts of it that does little good for 
wildlife or for human life. It is a darned shame. I think too 
much is lost in all of the demagoguery on protecting the 
environment when you fail to include some human stewardship 
component in it. I think our witnesses understand that. I 
appreciate the President's understanding, a better sense of 
balance than we have seen in recent years.
    I look forward to joining the debate tomorrow and pointing 
out the other side of the equation. I had a very wise mother, 
Mr. Chairman. One of her many sayings I remember is that the 
best way to ruin a good story is to hear the other side. I hope 
the American people hear the other side.
    Thank you for letting me include this statement.
    Senator Craig. Well, thank you all very much for being 
here.
    Now let us turn to our witnesses and our first panel. We 
have the Honorable Lynn Scarlett, Assistant Secretary for 
Policy, Management and Budget, Department of the Interior, and 
the Honorable Mark Rey, Under Secretary for Natural Resources 
and Environment, Department of Agriculture.
    Again, welcome before the committee. We will forego the 
charging of the anticipated fee today. With that, Lynn, we will 
start with you. Thank you.

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you very much. Thank you, Mr. Chairman 
and members of the subcommittee. We are pleased to be able to 
have an opportunity to present the Department of the Interior's 
views on implementation of the rec fee demo program and our 
ideas for going forward with such a program. I would like to 
thank the subcommittee and the committee for their interest and 
willingness to discuss this issue.
    Why do we think recreation fee programs and the 
continuation of a program are important? The Department 
supports the establishment of a permanent multi-agency 
recreation fee program because the program does allow us to 
meet growing visitor demands for enhanced visitor facilities 
and services. It also enhances our ability to support the 
President's initiative on addressing the maintenance backlog in 
all of our public lands.
    Interior, as we are all aware, manages 1 in every 5 acres 
of the United States. Growing numbers of Americans and others 
are visiting public lands and seeking recreation opportunities. 
Increased recreation is especially dramatic on our Bureau of 
Land Management lands and our Fish and Wildlife Service lands, 
as you can see from this chart which shows the two rapidly 
escalating lines. Since 1985, recreation demand has increased 
approximately 65 percent on Bureau of Land Management lands. 
Recreation demand has increased approximately 80 percent on 
Fish and Wildlife Service refuges. Recreation demand has also 
increased at our Bureau of Reclamation lakes by some 10 million 
visitors.
    The administration strongly supports ensuring that visitors 
have outstanding recreation experiences. The recreation fee 
demo program has contributed significantly, we believe, in each 
of our land management agencies to meeting the needs of that 
visiting public. Fees have provided Interior in a single year 
over $170 million that are invested directly at the 
recreationsites on Department of the Interior managed lands.
    The most significant revenues accrue to the National Park 
Service, as we are all aware, which charges fees at some 60 
percent of locations. But for the very few select number of 
Bureau of Land Management sites and Fish and Wildlife sites 
that have taken advantage of the rec fee program, these 
revenues have been critical to their ability to serve the 
public and expand facilities and services to meet growing 
demand.
    At Moab, Utah, which I had the opportunity to visit just 
this last week, recreation fees bring in over $500,000 compared 
to the recreation management appropriation of $187,000. These 
revenues from the fee program are, in fact, the backbone of the 
special services we provide to the growing number of users at 
the Moab site. This chart and the yellow line shows the pace of 
revenues that represent the expanding use by people to the Moab 
site. Moab now serves over 1.6 million visitors each year, 
compared to 800,000 visitors to the neighboring national park 
site at Arches National Park.
    As we look at recreation and visitation patterns, we 
conclude that it is not the agency label that really is 
relevant. Rather, in considering the appropriateness of 
applying recreation fees, we think what is critical are the 
site characteristics, uses, and amenities. Many lands, 
regardless of which agency manages them, display similar 
features in terms of recreation activities, amenities, and 
visitation levels. I know this is a little bit of an eye chart, 
but let me describe what is on it for you.
    Red Rock Canyon National Conservation Area, for example, 
has striking similarities to Arches National Park and, as the 
Forest Service will testify, to the Sedona Recreation Area. Red 
Rock offers visitors world-class rock climbing, a visitor 
center, bookstore, toilet facilities, picnic areas, and many 
other amenities. As with other BLM sites, visitation at Red 
Rock Canyon has increased substantially in recent years.
    In your handout packet, we actually have some pictures of 
the sites and facilities at Red Rock.
    Our visitor surveys show strong support for the recreation 
fee program if and when these dollars are invested back in the 
site where visitors recreate. A permanent multi-agency program 
should ensure that a majority of recreation fees stay at the 
site to enhance visitors and facilities.
    Visitors have come to count on the services that these fees 
provide. At Moab, recreation fees help maintain and upgrade 
toilet facilities, trails, and parking lots. For example, BLM 
used $50,000 per year just to service the toilet facilities 
with that 1.6 million number of visitors each year. At Lake 
Havasu, there are over 3.1 million annual visits. To serve 
these visitors, BLM has replaced 50 leaking and deteriorating 
fiberglass outhouses and numerous other facilities, including 
installation of 700 feet of riverbank block walls. Rec fees 
help us to continue to maintain these facilities and 
infrastructure.
    The Fish and Wildlife Service likewise is using fees at a 
selected number of sites to enhance the visitor experience. The 
Fish and Wildlife Service has replaced outhouses, provided 
wildlife viewing boardwalks, upgraded cabins, introduced 
education programs, built parking areas, and improved trails.
    Sites that attract thousands of visitors each day and tens 
of thousands of visitors each year must invest in these 
sanitation facilities, parking, campgrounds, shelters, and 
other infrastructure.
    We are aware of the concern that many Members of Congress 
have expressed, particularly concerns that fees might be 
charged where no recreation amenities exist. Many of these 
concerns arise from practices applied during the experimental 
introduction of fees at the outset of the fee demo program. Our 
agencies have learned from those experiences and have made 
adjustments to address public concerns.
    All Interior agencies now have disciplined processes for 
making determinations regarding the introduction of recreation 
fees. At Bureau of Land Management, locations must first be 
designated as a special recreation management area which 
requires following the land use planning process. Site plans 
and business plans must be developed. Public comment, often 
including participation of the resource advisory councils is 
received. Decisions require approval of the State director and 
all proposed decisions are presented at the Federal Register 
for public comment.
    Fish and Wildlife Service similarly has a rigorous review 
process with final fee decisions requiring approval by the 
director.
    We look forward to working with you to enhance that 
discipline and that decision process.
    Using these management procedures, the result for Interior 
has been that a small percentage of Fish and Wildlife Service 
and BLM sites use fees. 89 percent of BLM sites do not charge 
any fee at all. 78 percent of Fish and Wildlife Service sites 
that are open to visitation do not charge any fee demo fees. 40 
percent of all National Park Service sites do not charge fees.
    We absolutely agree with those who have stated that fees 
are inappropriate under many circumstances on public lands. If 
given permanent recreation fee authority, the Department will 
not charge for Federal lands that do not have enhanced 
facilities and services. The Bureau of Land Management and Fish 
and Wildlife Service have made a commitment not to charge any 
fees at areas with no facilities and services, for persons who 
are driving through, walking through, or hiking through Federal 
lands without using facilities or services, for undesignated 
parking, and for overlooks and scenic pullouts.
    Even at locations with fees, the actual area where a 
recreation fee charged is narrowly drawn and only includes the 
recreationsite that offers the facilities and services. In the 
Cascades Resource Area, for example, which spans 169,000 acres, 
the Bureau of Land Management charges a fee at the Wildwood 
Recreation Site, which is a 550-acre developed site within that 
larger arena. Visitors who seek the more natural experience and 
do not wish to use facilities and services can recreate free of 
charge at over 99 percent of the Cascades Resource Area.
    At Moab, Utah, the Bureau of Land Management, as I noted, 
manages 1.8 million acres, attracting over 1.6 million visitors 
annually. Fees are charged only at a small portion of these 
lands where significant amenities exist. The location has 
become a premier destination for mountain bikers, campers, rock 
climbers, and off-road vehicle enthusiasts. Amenities include 
over 400 camp sites, miles of groomed and marked trails with 
signage, toilet facilities, and other infrastructure.
    The BLM, the National Park Service, and the Fish and 
Wildlife Service or Forest Service jointly participate with a 
county association in operating a downtown Moab visitor center.
    Interior sees outstanding opportunities to partner with 
gateway communities to serve visitors and benefit cities and 
counties.
    However, we are concerned that a strict revenue-sharing 
provision that would give a percentage of recreation fees to 
all neighboring counties would present significant problems. As 
I noted earlier, the public's acceptance of recreation fees is 
strongly related to the commitment that the revenues stay at 
the site and be reinvested in visitor services. Collaborative 
partnerships allow counties that provide services to visitors 
to share revenues and maintain the nexus between the visitors 
who pay the fees and the benefits received. Recreationsites 
provide tremendous benefits to counties and gateway 
communities. Recreation activities on the BLM lands in Moab, 
for example, account for nearly 60 percent of the economy in 
Grand County and more if indirect effects are included.
    At BLM sites, those areas with recreation fees and the 
associated investments in amenities, made possible by those 
fees, are actually experiencing higher growth rates in 
visitation than the non-fee areas.
    We believe the collaborative partnership approach with 
counties and others recognizes that we can work together with 
gateway communities to promote tourism and provide quality 
recreation experiences to our shared visitors. This is exactly 
what is occurring at Sand Flats in Utah where the county and 
the BLM work together and charge a fee for recreation 
opportunities on land that includes State lands combined with 
BLM lands.
    Mr. Chairman and members of this subcommittee, we believe 
we are ready to translate our experiences over the past several 
years into a permanent recreation fee program that does enable 
us to serve the public well. We hope the facts and information 
provided will be helpful to you and other members as these 
discussions continue.
    The Department thanks you for your interest. We look 
forward to working with members of the subcommittee and 
committee on this issue. We do think accountability, 
transparency, efficiency, and fairness are critical.
    We would also like to take this opportunity to invite you 
and any other members of the committee out for a visit to BLM, 
Fish and Wildlife Service, or National Park Service fee demo 
sites.
    Mr. Chairman, this concludes my statement and I would be 
pleased to answer any questions. Thank you.
    [The prepared statement of Ms. Scarlett follows:]

Prepared Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
           Management and Budget, Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on the implementation of the 
Recreational Fee Demonstration program and ideas for a permanent multi-
agency recreation fee program. We also would like to thank members of 
the Subcommittee and Committee for their interest and willingness to 
discuss this very important issue.
    The Department of the Interior (Department) strongly supports the 
establishment of a permanent multi-agency recreation fee program 
because it allows us to meet visitor demands for enhanced visitor 
facilities and services on our federal lands. The recreation fee 
program is vital to our ability to provide our visitors with a quality 
recreational experience. It significantly enhances the Department's 
efforts to support the President's initiative to address the deferred 
maintenance backlog at our National Parks and enables us to better 
manage other federal lands. Authorization of a permanent program would 
allow the agencies the certainty that is needed to better serve 
visitors by making long-term investments, streamlining the program, and 
creating more partnerships.
    Our federal lands boast scenic vistas, breathtaking landscapes, and 
unique natural wonders. On these lands, many patriotic symbols, 
battlefields, memorials, historic homes, and other types of sites tell 
the story of America. Federal lands have provided Americans and 
visitors from around the world special places for recreation, 
education, reflection, and solace. The family vacation to these 
destinations is an American tradition. We want to ensure that the 
federal lands continue to play this important role in American life and 
culture. Fulfilling this mission requires that we maintain visitor 
facilities and services, preserve natural and historic resources, and 
enhance visitor opportunities. Such efforts require an adequate and 
steady source of funding. Recreation fee revenues provide us important 
supplemental funding that better enables us to serve those using 
recreation amenities.
    Although recreation fees date back to 1908, Congress first 
established broad recreation fee authority in 1965 under the Land and 
Water Conservation Fund (LWCF) Act. In enacting this authority, 
Congress acknowledged that the visitors to federal lands receive some 
benefits that do not directly accrue to the public at large and that 
charging a modest fee to that population is equitable to the user and 
fair to the general taxpayer. In 1996, Congress took that idea one step 
further when establishing the Recreation Fee Demonstration (Fee Demo) 
program for the National Park Service (NPS), the Bureau of Land 
Management (BLM), the U.S. Fish and Wildlife Service (Fish and Wildlife 
Service), and the U.S. D.A. Forest Service (Forest Service). During the 
105th Congress, a House Appropriations Committee Report noted that the 
Fee Demo program was developed in direct response to the federal 
agencies' concern over their growing backlog maintenance needs. The Fee 
Demo program allowed participating agencies to retain a majority of 
recreation fees at the site collected and reinvest those fees into 
enhancing visitor facilities and services. This authority was 
deliberately broad and flexible to encourage agencies to experiment 
with their fee programs. Congress has demonstrated its support of the 
Fee Demo program by extending the program seven times and expanding the 
program by lifting the initial one hundred site limit per agency.
    Given the Department's experience with these programs, we would 
like to share with you some of our observations about recreation 
activity on federal land and the lessons we have learned implementing 
the Fee Demo Program over the last eight years. We offer several 
suggestions about the types of provisions that we believe are critical 
to any permanent recreation fee program.

       A PERMANENT RECREATION FEE PROGRAM SHOULD BE MULTI-AGENCY

    The Department has found that the pattern of recreation on our 
federal lands has changed dramatically. National Parks continue to be a 
destination favorite for American families. However, more than ever, 
Americans also are choosing to recreate on lands managed by other 
federal agencies, such as BLM and the Fish and Wildlife Service. Since 
1985, recreation demand has increased approximately 65 percent on BLM 
lands and 80 percent on National Wildlife Refuges. Over the same time 
period, the Bureau of Reclamation estimates an increase of to million 
recreation visits for a total of 90 million visits to their 288 lakes. 
With this increase in visitation is an increase in visitor demand for 
adequate visitor facilities and services. Because many of our visitors 
do not distinguish among federal land management agencies, many expect 
to find the same amenities typically provided at National Parks, 
including hosted campgrounds, permanent toilet facilities, and potable 
drinking water. This increase in visitor use on these other federal 
lands also creates a greater need to expend funds to protect natural 
and cultural resources-the resources that are often the very reason 
visitors are drawn to the particular site. A permanent multi-agency 
recreation fee program allows each agency to respond to the needs of 
the visiting public.
    Many lands, regardless of which agency manages them, display 
similar features in terms of recreation activities, amenities, and 
visitation levels. Red Rock Canyon National Conservation Area (NCA) 
managed by the BLM has striking similarities to Arches National Park 
managed by NPS and, as the Forest Service will testify, to Sedona 
Recreation Area managed by the Forest Service. Both Red Rock Canyon NCA 
and Arches National Park were created to protect their unique 
geological features and offer visitors world-class rock-climbing, a 
visitor center, book store, toilet facilities, and picnic areas. Both 
sites charge a modest recreation fee, a majority of which stays at the 
site to enhance facilities and services. As in other BLM sites, 
visitation at Red Rock Canyon NCA has increased substantially in recent 
years. Visitation increased 5.5 percent from 761,445 recreation visits 
in FY 2001 to 803,451 recreation visits in FY 2003.


----------------------------------------------------------------------------------------------------------------
                                         Red Rock Canyon                                 Sedona Recreation Area
                                      National Conservation     Arches National Park        (Forest Service)
                                       Area (BLM)  Nevada            (NPS)  Utah                 Arizona
----------------------------------------------------------------------------------------------------------------
Features..........................  Rock Formations--thrust   Rock Formations--arches,  Rock Formations--buttes,
                                     faults, petrified sand    windows, pinnacles,       pinnacles, mesas, rock
                                     dunes, canyons, rock      pedestals, rock art       art, canyons
                                     art
Amenities.........................  Visitor Center            Visitor Center            Visitor Center
                                    Book Store                Book Store                Book Store
                                    Toilet Facilities         Toilet Facilities         Toilet Facilities
                                    Picnic Area               Picnic Area               Picnic Area
Activities........................  Rock Climbing             Rock Climbing             Rock Climbing
                                    Hiking                    Hiking                    Hiking
                                    Bicycling                 Bicycling                 Bicycling
                                    Birdwatching              Birdwatching              Birdwatching
                                    Picnicking                Picnicking                Picnicking
                                    Camping                   Camping                   Camping
                                    Backpacking               Backpacking               Backpacking
                                    Commercial Filming        Commercial Filming        Commercial Filming
                                    Archeological Sites       Archeological Sites       Archeological Sites
                                    Horseback Riding          Guided Ranger Walks       Horseback Riding
                                    Off Road Vehicle Areas                              Swimming
FY 2003 Revenue...................  $1,410,174                $1,555,819                $734,633
FY 2003 Visits....................  803,451                   757,781                   1,525,000
Site Acres........................  196,000                   76,519                    160,000
Contiguous public land............  3.3 million acres of BLM  Approx. 1 million acres   1.8 million acres in the
                                     land (Las Vegas Field     of BLM land (Moab         Coconino National
                                     Office)                   District) and 2,000       Forest
                                                               acres State land
Access points.....................  One entrance station;     One entrance station;     Two visitor gateway
                                     five other access         two other entrances       centers; three access
                                     points with no fee        with no fee collection    highways
                                     collection
Current Entrance Use Fee..........  $5 per vehicle (per       $10 per vehicle (7        $5 per vehicle (per
                                     day); $2 per person on    days); $5 per person (7   day); $15 per vehicle
                                     a bus; $20 annual pass;   days); $25 Southeast      (per week); $20 annual
                                     $25 group/weddings; $10   Utah Pass annual pass     pass; $16 per night per
                                     per night per site        (Arches, Canyonlands,     site camping fee; Free
                                     camping fee Free for      Hovenweep, Natural        for walk-in, bike-in,
                                     walk-in, bike-in, and     Birdges); $10 per night   and school groups;
                                     school groups; Accepts    per site camping fee;     Accepts Golden
                                     Golden Passports.         Accepts National Park     Passports.
                                                               Pass and Golden
                                                               Passports.
----------------------------------------------------------------------------------------------------------------

 A PERMANENT MULTI-AGENCY RECREATION FEE PROGRAM SHOULD BE LIMITED TO 
           AREAS THAT PROVIDE ENHANCED FACILITIES OR SERVICES

    We understand that our visitors seek a broad range of experiences 
when they choose to visit their federal lands and that a successful 
recreation fee program would enable us to offer these recreation 
options to the public. For example, some visitors choose our federal 
lands because they want a unique individualized experience with 
nature--they seek out areas where they can camp under the stars at 
undeveloped sites, hike alone along a river, and enjoy the solitude. 
These visitors do not mind carrying all of their food in and all of 
their garbage out, and they would prefer areas that do not have picnic 
tables, toilet facilities, or visitor centers. If given permanent 
recreation fee authority, the Department will not charge for federal 
lands that do not have enhanced facilities and services. Even under the 
broad authority of the Fee Demo program:

  <bullet> 89 percent of BLM sites do not charge Fee Demo fees;
  <bullet> 78 percent of FWS sites open to visitation do not charge Fee 
        Demo fees;
  <bullet> 75 percent of all Forest Service sites do not charge Fee 
        Demo fees; and
  <bullet> 40 percent of all NPS sites do not charge Fee Demo fees.

    In contrast, we understand that other visitors enjoy a more 
structured recreation experience. These visitors enjoy viewing 
interpretive films, attending lectures about geology, history and 
culture at a visitor center or museum, and riding trams or other types 
of transportation to see the sites. Their preferred lodging is a 
developed cabin or hotel. For these reasons, these visitors often 
choose to visit destination National Parks.
    Still other visitors prefer a little bit of both experiences. These 
visitors often visit areas managed by one of many different agencies, 
including the BLM, FWS, and the Forest Service. These visitors enjoy a 
less structured experience and more direct interaction with the land 
and its unique resources, but still want certain facilities, such as 
toilet facilities, interpretive exhibits, boat ramps, and developed 
parking areas. Other areas that appeal to these visitors are the 
popular weekend destinations that are located near major urban centers. 
Because of the sheer number of visitors at these locations, the need 
for visitor services increases. Such services include increased medical 
and emergency services, increased law enforcement, increased 
maintenance of toilet facilities and trails, and greater protection of 
natural, cultural, and historic resources. Modest recreation fees that 
primarily stay at the site of collection make such enhanced facilities 
and services possible.
    To ensure that the Recreation Fee Program enhances the recreation 
experience for our visitors, BLM and FWS have made a commitment not to 
charge basic or expanded recreation fees:

  <bullet> At areas with no facilities or services;
  <bullet> For persons who are driving-through, walking-through, or 
        hiking through federal lands without using the facilities or 
        services;
  <bullet> For undesignated parking; and
  <bullet> For overlooks or scenic pullouts.

    Through the Interagency Recreation Fee Leadership Council (Fee 
Council), which was created in 2002 to facilitate coordination and 
consistency among high level officials of the Department of the 
Interior and U.S. Department of Agriculture (USDA), the Department also 
identified seven principles critical to a successful fee program. These 
guiding principles indicate that fees should be: 1) beneficial to the 
visiting public; 2) fair and equitable; 3) efficient; 4) consistent; 5) 
implemented collaboratively; 6) convenient; and should 7) provide for 
accountability to the public. The Department has committed to applying 
these guiding principles to any administrative and legislative effort 
concerning the recreation fee program.
    Toward this end, all agencies have administrative processes to 
limit the expansion of the program to areas where the visitors are 
provided enhanced facilities and services. For BLM, areas must first be 
designated a Special Recreation Management Area (SRMA). These 
designations are made in land-use plans and require environmental 
analysis and public participation. It is important that these processes 
also ensure that the actual area where a recreation fee is charged is 
narrowly drawn and only includes the recreation site that offers the 
facilities and services.
    For example, in the Cascade Resource Area that spans 169,400 acres, 
BLM only charges an entrance fee at one 550 acre area with developed 
recreation, the Wildwood Recreation Site. Thus, visitors who seek a 
more natural experience and do not wish to use facilities and services 
can recreate free of charge in over 99 percent, or 168,850 acres, of 
the Cascade Resource Area. Those who choose to use the facilities and 
services at the Wildwood Recreation Site, which include a learning 
center, the Cascade Streamwatch interpretive trail featuring an in-
stream fish viewing window, a wetlands boardwalk trail, 2.5 miles of 
paved trails, two large group picnic shelters, and an athletic field, 
pay a modest $3 per vehicle per day fee, $10 for an annual site pass, 
or a group facility fee. Visitors who walk in or bike in and school 
groups can use the Wildwood Recreation Site free of charge. Although 
construction of most of the facilities was paid for out of other funds, 
just as it is in many National Park Service sites, recreation fees 
provided the site with $37,000 in FY 2003, a modest, but significant 
contribution to the maintenance and upkeep of the facilities. These 
services, along with environmental education and interpretive programs, 
enhance the visitor experience and would not be possible without the 
recreation fee program.
    At Moab, Utah, BLM manages 1.8 million acres. Portions of these 
lands consist of dramatic geologic structures, and canyons through 
which the Colorado River cuts. The area has become a premier 
destination for mountain bikers, campers, rock climbers, and off-road 
vehicle enthusiasts. To provide opportunities for these visitors, BLM 
has constructed and manages over 400 campsites, groomed and marked 
miles of trails with signage, provided toilet facilities, and other 
amenities. These sites attract over 1.6 million visitors annually. The 
recreation fees charged at these sites generate over $500,000, 
comprising two-thirds of the recreation management budget for these 
areas. At another area near Moab, BLM operates under a joint agreement 
to provide biking, camping, and off-road vehicle opportunities in an 
area that includes BLM and State Lands. Through a recreation fee, the 
partners generate over $250,000, which enables them to offer trails, 
toilets, signage, campgrounds, paved parking, and other amenities. 
Other BLM areas are open to recreation, free of charge for visitors.
    These areas abut Arches National Park and Canyonlands National 
Park, where entry fees are charged. The two parks have 94 campsites, 
small amounts of OHV recreation opportunities and offer educational and 
interpretation at the visitor centers and around the parks. The NPS, 
BLM and Forest Service jointly participate with a County association in 
operating a downtown visitor center in the heart of Moab.

   A PERMANENT MULTI-AGENCY PROGRAM SHOULD PROVIDE FOR STANDARDIZED 
 RECREATION FEES, ALLOW FOR DEVELOPMENT OF A STREAMLINED PASS SYSTEM, 
                       AND MINIMIZE FEE LAYERING

    In working administratively to improve the recreation fee program, 
the Department has found that the issues of standardizing recreation 
fees across agencies, creating a streamlined and sensible pass system, 
and minimizing fee layering--or what might better be thought of as 
tiered fees--are all interrelated. Historical fee definitions in the 
LWCF Act and differences among agencies in legislative fee authorities 
have led the agencies to develop slightly different definitions of what 
activities are covered by ``entrance'' fees and those covered by 
``use'' fees. The result has been that, at some sites, a use fee was 
established rather than an entrance fee, and at other sites, an 
additional use fee was charged for the primary attraction of the site 
when the activity should have been covered by an already-paid entrance 
fee. The lack of consistency among and within agencies has led to 
visitor confusion and some expression of frustration about fee layering 
and the related issue of when the Golden Passes established under the 
LWCF Act and the National Park Passport may be used.
    In the Department's testimony before this Congress during the 107th 
Congress, we proposed addressing these concerns by creating a new 
system of ``basic'' and ``expanded'' recreation fees that would be 
consistently applied across all agencies and would minimize fee 
layering by ensuring that the basic fee covers the primary attraction 
of the site. Under this system, restrictions would be put in place to 
ensure that the visiting public is not charged if the agency is not 
making a certain level of investment in visitor facilities or services. 
We look forward to working with the Committee to further refine these 
concepts.
    The visiting public is interested in having a variety of pass 
options. Multi-agency and regional passes can provide visitors, 
including nearby residents, with convenient and economical ways to 
enjoy recreation on federal lands. Passes also can serve as a means to 
educate the American public about their federal lands and available 
recreational opportunities. Because of the lack of standardization of 
fees, however, some confusion has resulted from the existing pass 
system. For these reasons, the Department supports a program that would 
allow for the streamlining of a multi-agency pass and the creation of 
regional multi-entity passes with a standardized package of benefits. 
Visitors should be able to expect and receive the same amenities for 
their pass regardless of which agency manages the site they are 
visiting.
    The Department and USDA have moved forward administratively to 
address these issues, where possible. Although we are retaining the 
LWCF terminology, the agencies are making adjustments to standardize 
the classification of fees to decrease visitor confusion about the 
passes and minimize fee layering. For example, the Forest Service has 
expanded and clarified the benefits of the Golden Passes to include 
1500 additional sites. The previous pass policy at those sites was 
extremely confusing: the Golden Eagle Pass was not accepted, Golden Age 
and Access passholders were given a 50 percent discount, while a 
regional pass, like the Northwest Forest Pass, was accepted in full. 
NPS is evaluating whether passes could be accepted at an additional 30 
sites that currently do not accept passes for the primary attraction. 
BLM has evaluated all of its sites and is now accepting the Golden 
Eagle Pass at 12 additional sites.
    The Department is streamlining the recreation fee system. Our 
experience has shown that eliminating all fee-tiering is neither fair 
nor equitable, especially for specialized services such as camping, 
reservations, enhanced tours, or group events. The notion behind 
charging a fee beyond the basic recreation fee is that certain 
recreation activities require additional attention by agency staff or 
involve costs that should not be borne by the general public through 
taxpayer funds or by the rest of the visiting public through the basic 
recreation fee. The system must balance fairness and equity principles 
by carefully considering the relationship between who pays and who 
benefits.
    Another important consideration is fee levels. The Department is 
committed to ensuring access to all visitors. Recreation fees represent 
a tiny percentage of the out-ofpocket costs that an average family 
spends on a typical vacation. Recreation fees are reasonable in 
comparison to those charged for other recreational activities. For 
example, in Jackson Hole, Wyoming, a family of four pays $20 for a 
seven day pass to both Grand Teton National Park and Yellowstone 
National Park. In contrast, in Jackson Hole, the same family pays 
$27.50 for 2-3 hours of entertainment at a movie theatre.

   A PERMANENT MULTI-AGENCY PROGRAM SHOULD ENSURE THAT A MAJORITY OF 
  RECREATION FEES STAY AT THE SITE TO ENHANCE VISITOR FACILITIES AND 
                                SERVICES

    Visitor support of recreation fees is strong when the fees remain 
at the site for reinvestment into visitor facilities and services. We 
believe that this is an essential component of any permanent multi-
agency recreation fee program. We understand that it is not only 
important to make these critical investments, but also to ensure that 
we communicate to the public how recreation fees are spent to enhance 
the visitor experience. Recreation fees are sometimes spent in ways 
that may not be apparent, but would be noticed by visitors if the 
investment did not occur. Recreation fees are spent on such services as 
maintaining and upgrading toilet facilities, trails, and parking lots. 
For example, at Moab, Utah, which receives 100,000 visitors annually, 
it costs BLM $50,000 per year just to service the toilet facilities.
    At the Lake Havasu Field Office in Arizona, BLM has replaced 50 
leaking and deteriorating fiberglass outhouses with 36 block wall 
accessible restrooms. BLM also has installed 700 feet of river bank 
block walls, which will help protect the newly constructed restrooms as 
well as stabilize the campsites' eroding shoreline. Recreation fees 
contribute to the maintenance and upkeep of these investments and will 
help ensure that the visiting public will be able to use these 
facilities for many years in the future.
    The Fish and Wildlife Service has used fees to offer some unique 
opportunities to visitors consistent with the six priority recreation 
uses outlined in the National Wildlife Refuge System Improvement Act of 
1997--hunting, fishing, wildlife photography, wildlife observation, 
environmental education, and interpretation. At California's Modoc 
National Wildlife Refuge, the Fish and Wildlife Service used recreation 
fees to benefit hunters and photographers by replacing an old hay bale 
blind with a new wooden, more accessible hunting and photo blind, 
complete with access ramp. At the National Elk Refuge, the Fish and 
Wildlife Service collects an Elk hunt permit recreation fee of $1 per 
hunter at the weekly hunter drawings in October, November, and 
December. These recreation fees are used to rent a fair pavilion 
building from the county to conduct refuge hunt orientation and permit 
drawings at the beginning of each hunting season. Hundreds of hunters 
attend each year. In addition, the modest recreation fee allows the 
Fish and Wildlife Service to purchase retrieval carts and sleds for the 
hunters' use and shooting sticks to encourage ethical hunting.
    As public recreation grows in scope and form of recreation, 
increasingly, all of our land management agencies are meeting these 
needs. Sites that attract thousands of visitors each day and tens of 
thousands of visitors each year, must invest in sanitation facilities, 
parking, campgrounds, shelters, boat ramps, and other infrastructure 
that helps ensure access, safety, and resource protection so the very 
feature that attracts the visitor remains available for the future. 
Many BLM, Forest Service, FWS, and NPS sites share identical or similar 
characteristics, including significant infrastructure. These sites 
vary--not by the agency label--but by the particulars of location. Sand 
Flats, in Moab, Utah, includes BLM lands and a single point of entry 
into canyon area trails and campgrounds. The Everglades National Park 
in Florida stretches over 1.5 million acres and has multiple points of 
access. Recreation fees are charged in some parts of the park and not 
others, much like the situation on BLM lands in Moab.
    These and the many other important enhancements made possible by 
the recreation fee program are described in our annual Recreational Fee 
Demonstration Program report to Congress. All of these reports are 
available on http://www.doi.gov/nrl/Recfees/RECFEESHOME.html. The 
FY2003 annual report is currently in the final stages of review, and we 
expect to transmit it to Congress shortly.

     COLLABORATIVE PARTNERSHIPS WITH STATES, COUNTIES, AND GATEWAY 
                              COMMUNITIES

    We view counties and gateway communities as potential partners in 
our effort to provide a quality recreation experience for our mutually-
shared visitors. The Department supports a recreation fee program that 
provides the Secretary authority to enter into collaborative 
partnerships with public and private entities for visitor reservation 
services, fee collection or processing services. Such a provision would 
allow us, among other things, to more vigorously seek out opportunities 
to engage gateway communities through the recreation fee program and is 
consistent with Secretary Norton's emphasis on cooperation and 
partnerships to achieve public goals. Given our experience with 
cooperative decision-making within the Fee Demo program, we believe 
that any future permanent multi-agency fee program should foster 
collaborative opportunities.
    The Department believes that collaborative partnerships with 
gateway communities best serve our visitors and the counties involved. 
Our experience with recreation fees under LWCF and the Fee Demo program 
has shown us that a strict revenue sharing provision that would give a 
percentage of recreation fees to all neighboring counties would present 
significant problems. First, as we discussed earlier in this testimony, 
the public's acceptance of recreation fees is strongly related to the 
commitment that revenues stay at the site and be reinvested in visitor 
services. A provision for the sharing of recreation fee revenue where 
counties provide mutually-shared visitors with services, such as search 
and rescue services, would maintain the nexus between the visitors who 
pay the fees and the benefits received. Under a strict revenue sharing 
provision, the monies would go into the general county funds, rather 
than to the agencies--local, state, and federal--that are actually 
providing the visitors with the services.
    Second, the agencies already have the authority to charge 
recreation fees under LWCF, but had no incentive to charge because the 
recreation fees were not retained at the site for reinvestment into 
enhanced visitor facilities and services. A strict revenue sharing 
provision would severely compromise the agencies' incentive to charge 
recreation fees--thus resulting in a diminution of facilities and 
services for the visitors. Third, a strict revenue sharing provision 
does not account for the different relationships counties may have with 
recreation sites on neighboring federal lands. Some communities provide 
more services to the mutually-shared visitors, yet would receive the 
same amount of funds as other counties.
    It is critical that we recognize the positive impact the presence 
of recreation sites on nearby federal lands has on counties and gateway 
communities. According to a study entitled, Banking on Nature 2002: The 
Economic Benefits to Local Communities of National Wildlife Refuge 
Visitation, the more than 35.5 million visits to the nation's 540 
refuges fueled more than $809 million in sales of recreation equipment, 
food, lodging, transportation and other expenditures in 2002. The total 
for sales and tourism-related revenue plus employment income, $1.12 
billion in total is nearly four times the $320 million that the 
National Wildlife Refuge System received in FY 2002 for operation and 
maintenance and over 300 times the $3.6 million the FWS generated 
through the Fee Demo Program in that year.
    The collaborative partnership approach recognizes that we can work 
together with gateway communities to promote tourism by providing a 
quality recreational experience to our shared visitors. One example of 
the type of partnership that could flourish through a collaborative 
agreement provision under a permanent recreation fee program is the 
Sand Flats Agreement entered into in 1994 by BLM and the gateway 
community of Grand County, Utah, discussed earlier in this testimony. 
Sand Flats is a 7,000-acre recreational area outside Moab, Utah that 
includes BLM and state lands. It is highly popular, particularly with 
mountain bikers and off-highway vehicle users. In the early 1990s, its 
popularity increased so much that the BLM was no longer able to manage 
and patrol the area. Looking for a creative solution, BLM entered into 
a cooperative agreement with the county under which the county would 
collect recreation fees and use them to manage and patrol the highly 
popular recreational area. The county and its citizens have benefited 
from a more vigorous tourist trade; the BLM now has a signature 
recreation area; and visitors can safely enjoy the Sand Flats area. We 
believe that the Sand Flats Agreement is an excellent model of a 
mutually beneficial collaborative partnership and that the opportunity 
to craft these types of agreements exists across the country.
    Other possible collaborative partnerships with states and local 
communities could be developed through the creation of regional multi-
entity passes. Providing visitors and residents of nearby communities 
with a well-structured, appropriately priced, regional multi-entity 
pass would allow for benefits that could extend to other federal, 
state, and private entities. Recognizing that recreation areas and the 
visitors who enjoy them do not necessarily follow state boundaries, our 
experience has shown that regional multientity passes offer greater 
flexibility and can be tailored to meet identified recreational 
demands. One example of a successful regional pass is the Visit Idaho 
Playground (VIP) Pass, which covers all entrance and certain day-use 
fees at a variety of state and federal sites including those under the 
jurisdiction of the Idaho Department of Parks and Recreation, the Idaho 
Department of Commerce, the Bureau of Reclamation, Forest Service, NPS, 
and BLM.
    During FY 2003, BLM, NPS, FWS, and the Forest Service worked 
cooperatively with the Oregon Parks & Recreation Department, the 
Washington State Parks & Recreation Commission, and the U.S. Army Corps 
of Engineers to develop an annual multi-agency day-use recreation pass 
for use in the Pacific Northwest. This annual pass became available 
this month and will be accepted at many public day-use fee areas in 
Oregon and Washington. Revenues will be used to operate and maintain 
key recreation facilities and services. The pass will sell for $85 and 
includes the Golden Eagle Passport for $65 and the Washington and 
Oregon Recreation Pass Upgrade for $20.
    The Department supports a permanent recreation fee program that 
works together with gateway communities and counties and keeps our 
commitment to the visitor that we use recreation fees to improve 
visitor services. We believe that collaborative partnerships best 
achieve this goal.

                THE FUTURE OF THE RECREATION FEE PROGRAM

    We have learned a great deal from our experience in administering 
the Fee Demo program and believe we are ready to translate that 
experience into a permanent recreation fee program. Delay could result 
in a lost opportunity to implement a more productive, streamlined 
recreation fee system, designed to enhance the visitor's experience. 
Establishing a permanent program does not mean the learning ends here. 
We support a dynamic recreation fee program that responds to new 
lessons learned and builds on success stories. We believe a recreation 
fee program with the suggestions in this testimony would create such a 
dynamic program while providing the Department the certainty to make 
long-term investments, improve efficiencies, and initiate more 
partnerships.
    During full committee markup on S. 1107, a bill to enhance the 
Recreational Fee Demonstration Program for the National Park Service, 
many members of the Committee recognized the need to further discuss 
multi-agency recreation fee authority. Mr. Chairman, we hope the facts 
and information provided in this testimony will be helpful to you and 
other members of the Committee during future discussions of permanent 
multi-agency recreation fee authority. The Department thanks you for 
your interest and looks forward to working with members of the 
Subcommittee and Committee on this important issue. We also would like 
to take this opportunity to invite you and any other members of the 
Committee out for a visit to a BLM, FWS, or NPS Fee Demo recreation 
site.
    Mr. Chairman, this concludes my statement, and I would be pleased 
to answer any questions you or other members of the Subcommittee may 
have.

    Senator Craig. Well, Lynn, thank you very much.
    Now let us turn to Under Secretary Mark Rey, Natural 
Resources and Environment, Department of Agriculture. Mark, 
again, welcome to the committee.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you. In my experience, the committee has 
often charged a hearing user fee, and the legal tender 
generally involves some poundage from the witnesses. So I am 
glad that you are waiving the fee today.
    [Laughter.]
    Mr. Rey. I appreciate the opportunity to discuss the Forest 
Service implementation of the recreation fee demonstration 
project.
    Over the last 8 years, all of the agencies involved in fee 
demo have experimented with fees and learned many lessons. The 
program was designed to allow flexibility in implementation and 
experimentation and be broad enough to allow agencies to 
experiment with different types of fee programs. The Department 
and the Department of the Interior continue to study, evaluate, 
and improve the fee program within individual agencies, sharing 
our learning experiences along the way. It has taken time to 
understand the results of these experiences, but the Forest 
Service is moving aggressively to address concerns that have 
arisen to date.
    In January of this year, the Forest Service started 
implementing the Blueprint for Forest Service Recreation Fees. 
The blueprint was developed based on lessons learned and 
establishes consistent national criteria for how the recreation 
fee program will be implemented. The goal of the blueprint is 
to have a consistent national policy to provide high quality 
recreationsites, services, and settings that enhance the 
visitor experience and protect natural and cultural resources. 
By implementing the blueprint, which we have provided for the 
committee's record, the Forest Service is addressing public and 
congressional concerns to ensure that recreation fees are 
convenient, consistent, beneficial, and accountable.
    Each unit that is participating in the fee demonstration 
program has reviewed how its current fee program fits with the 
blueprint. Those units that do not conform to the national 
criteria have been changed. Many units have been deleted from 
fee coverage, and all new projects that are proposed will 
follow the blueprint criteria.
    Additionally, as we have been working with your staffs, we 
have been discussing our suggestions for permanent recreation 
fee authority. Those suggestions are detailed in our testimony 
for the record, and I will simply summarize in saying that we 
are eager to translate the experience that we have received so 
far into a permanent fee program that you all can support. It 
should be a program that promotes interagency coordination 
because our users have told us that is paramount; that second, 
establishes a consistent interagency approach; that third, 
enhances partnerships with States and gateway communities; that 
fourth, establishes agency site-specific and regional multi-
entity passes; that fifth, provides for a new system of 
expanded fees; and sixth, provides for better reporting on the 
use of revenues; seventh, provides necessary authorities to 
implement the program; and finally, provides criteria for 
accountability and the control of revenues collected.
    Those suggestions, as I said, are detailed in our statement 
for the record.
    I will close by just making one observation about funding 
for the recreation program of the Forest Service and the 
Department of the Interior land management agencies. Unlike 
other programs where we can plan for expected results in ways 
that are more or less under our control, in the recreation 
program we are presented with events and circumstances that are 
often outside of our control. People show up and when they show 
up, we are obliged to deal with them.
    Your States and the western region are among the fastest 
growing places in the country. And as Assistant Secretary 
Scarlett has indicated, the use of our recreationsites has 
expanded exponentially as that growth has occurred.
    In addition to that simple growth in numbers, as our 
population ages, the nature of the recreation experience 
requested and desired has changed as well with more developed 
sites being desired and needed to serve an aging population.
    When you look at our budgets, it is without dispute that 
they are increasing, and I still find it somewhat remarkable 
how we manage to spend so much money. As Senator Smith 
indicated, it is correct that our budget increased from $267 
million for recreation in the Forest Service in 1996 to $390 
million in 2002. And that is a lot of money.
    But looked at differently, that is somewhat under a 6 
percent annual rate of increase, which means half of that has 
been consumed by inflation, without making any difference in 
the way things are managed. Add to that the increased use and 
the fact that many of our capital assets were constructed in 
the 1950's and the 1960's at the dawn of the outdoor recreation 
movement as our population became more mobile after World War 
II and leisure time expanded, assets that were built in the 
1950's and 1960's are now approaching the end of their useful 
lives and both Departments are contending with that. So we face 
a significant problem that unlike some of our other resource 
management problems present us with circumstances that we have 
to react to rather than which we can control completely.
    With that, either of us would be happy to answer any of 
your questions.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss implementation of the 
Recreational Fee Demonstration Program by the Forest Service. The 
Department appreciates the Subcommittee's interest in how the 
Departments of Agriculture and the Interior are implementing this vital 
program and want to work with Congress to develop permanent recreation 
fee authority which will provide quality services and facilities for 
the public to use.
    The Recreational Fee Demonstration program (Fee Demo), first 
authorized by Congress in 1996, has given the Forest Service, National 
Park Service, U.S. Fish and Wildlife Service, and the Bureau of Land 
Management a great opportunity to test the notion of user-generated 
cost recovery, where fees are collected and expended onsite to provide 
enhanced services and facilities. Current authorization expires on 
December 31, 2005. A permanent fee program would allow the Forest 
Service, along with the Interior agencies, to make long-term 
investments, continue to build further on successes of the current demo 
program, improve efficiencies, and initiate more partnerships.
    The recreation fee program is vital to our ability to provide 
quality recreational facilities, settings, and services. While the idea 
of charging fees for recreational use on our national forests has been 
controversial in some cases, taxpayers generally benefit when the cost 
of public services are at least partially borne by the direct users of 
these services. Since visitors to Federal lands receive some benefits 
that do not directly accrue to the public at large, charging a modest 
fee to partially offset the cost of that use is both fair and 
equitable. This principle underlies permanent fee authority under the 
Land and Water Conservation Fund Act (LWCFA). Over the years, surveys 
conducted regarding recreation fees indicate that most people accept 
modest fees, especially when they know that the fees are returned to 
the site where they are collected to enhance their recreation 
experience.
    My testimony today regarding the Fee Demo program will focus on: 
(1) implementation of the Forest Service Blueprint for Recreation Fees; 
(2) interagency coordination and consistency in developing recreation 
fee policies; (3) suggestions for permanent authority that would adhere 
to guiding principles and build on lessons learned; and (4) ideas for 
partnering with counties in implementing any permanent recreation fee 
authority.

              FOREST SERVICE BLUEPRINT FOR RECREATION FEES

    Over the past eight years all agencies involved in Fee Demo have 
experimented with fees and learned many lessons. Fee Demo was designed 
to allow flexibility in implementation and be broad enough to allow 
agencies to experiment with different types of fee programs. The 
Department continues to study, evaluate, and improve the fee program 
within individual agencies, sharing our learning experiences along the 
way. It has taken time to understand the results of these experiences, 
but the Forest Service is moving aggressively to address concerns that 
have arisen.
    In January 2004, the Forest Service started implementing the 
Blueprint for Forest Service Recreation Fees (Blueprint). The Blueprint 
was developed based on lessons learned and establishes consistent 
national criteria for how the recreation fee program will be 
implemented. The goal of the Blueprint is to have a consistent national 
policy to provide high quality recreation sites, services, and settings 
that enhance the visitor's experience and protect natural and cultural 
resources. By implementing the Blueprint, the Forest Service is 
addressing public and Congressional concerns to ensure recreation fees 
are; (1) convenient (making it as easy as possible for visitors to 
comply with fee requirements); (2) consistent (visitors expect a 
similar fee for similar activities, facilities, and services; thus a 
fee program will only be established where certain amenities or 
services are provided); (3) beneficial (demonstrating the added value 
the visitor receives in exchange for fees); and (4) accountable 
(building trust by informing the public on program investments and 
performance).
    Each unit that is participating in the Fee Demo program has 
reviewed how its current fee program fits with the Blueprint. Those 
units that do not conform to the national criteria have been changed. 
All new projects that are proposed will follow the Blueprint criteria. 
Some changes that have been implemented include:

  <bullet> The Adventure Pass in Southern California (includes the 
        Angeles, Cleveland, Los Padres and San Bernardino National 
        Forests) has identified four free areas where the Adventure 
        Pass is not required, while designating 12 free days for all 
        sites. This was implemented in response to public comments to 
        provide areas where a fee will not be charged.
  <bullet> The Northwest Forest Pass program in Oregon and Washington 
        has removed 385 sites where a pass will not be required. 
        Currently 679 day-use recreation sites on national forests in 
        the Pacific Northwest are included in the Northwest Forest 
        Pass.
  <bullet> The Sawtooth National Forest Trailhead-Parking Pass 
        Recreation Fee Project has removed 18 trailheads from the 
        program. Only 20 of the 38 trailheads in the Sawtooth project 
        met the Blueprint criteria. The Agency will no longer charge 
        fees at the 18 trailheads that do not meet the definition for a 
        significantly developed day-use site.

    In addition to the changes listed above, the Forest Service had 
implemented additional changes to fee sites based on public feedback to 
provide better service and improve efficiency:

  <bullet> The Yankee Boy Basin area, part of the Canyon Creek project 
        on the Grand MesaUncompaghre National Forest in Colorado, has 
        suspended fees for off-highway vehicle travel for one year to 
        allow local groups the opportunity to manage and monitor the 
        area.
  <bullet> The Salmon River project on the Salmon-Challis National 
        Forest in Idaho reduced fees this year (from $5.00/day/person 
        to $4.00/day/person) because necessary infrastructure has been 
        completed so not as much revenue is needed.

  INTERAGENCY COORDINATION AND CONSISTENCY IN DEVELOPING FEE POLICIES

    The strongest aspect of the Fee Demo program has been the 
coordinated efforts between the Forest Service and agencies in the 
Department of the Interior to minimize confusion and making recreation 
fees more convenient and beneficial. Our experience has shown that the 
visiting public does not distinguish between lands managed by different 
federal agencies. Thus, the Department has tried to implement a program 
that streamlines management across different boundaries. In 
implementing such a program, revenue has decreased in some instances, 
but the agencies have been able to provide a consistent program, which 
has significantly enhanced our ability to serve the public. Examples of 
interagency efforts include:

  <bullet> In April 2003, the Forest Service dramatically broadened the 
        application of the Golden Eagle Passport program to provide 
        interagency application and benefits. This change was based on 
        guidance from the Interagency Recreational Fee Council (Fee 
        Council) which worked to facilitate coordination and 
        consistency among the agencies on the implementation of 
        recreation fee policies. The Council developed standards for a 
        new fee structure to replace the outdated entrance and use fees 
        established under LWCFA. Using the framework of this new fee 
        structure, the Agency started accepting the Golden Eagle, 
        Golden Age, and Golden Access passports at all Forest Service 
        sites that charge a basic fee. Previously, only 18 Forest 
        Service sites accepted these passports, now over 1500 sites 
        accept them.
  <bullet> Starting in March 2003, Federal and State agencies in 
        Washington and Oregon are, for the first time, offering a 
        convenient interagency day-use recreation pass that is accepted 
        at many public, day-use fee areas. The Washington and Oregon 
        Recreation Pass is an add-on to the existing Golden Eagle 
        Passport program and will be honored at all National Forest, 
        National Park Service, Bureau of Land Management, and U.S. Fish 
        and Wildlife Service sites, in addition to 26 Oregon State 
        Parks charging a day-use fee, 20 Washington State Parks 
        charging a daily vehicle parking fee, and 6 Army Corps of 
        Engineers sites charging facility-use fees.

           SUGGESTIONS FOR PERMANENT RECREATION FEE AUTHORITY

    The Departments of Agriculture and the Interior have learned a 
great deal from experience in administering Fee Demo, and are eager to 
translate that experience into a permanent recreation fee program with 
Congressional support. Federal lands have provided Americans and 
visitors from around the world with special places for recreation, 
education, reflection and solace. The pattern of recreation on our 
Federal lands has changed dramatically and has increased exponentially. 
More then ever before, Americans are choosing to recreate on all 
Federal lands, in particular their National Forests. The Forest Service 
has estimated that over 211 million annual visits occur on National 
Forests, a two-fold increase since the 1960s. This increase in 
visitation means an increase in visitor demand for adequate visitor 
facilities and services. The Department wants to work with Congress and 
the public to ensure that our Federal lands continue to play an 
important role in American life and culture. To this end, permanent 
recreation fee authority is needed. From our knowledge, experience, and 
lessons learned from the past, here are some suggestions for a 
successful fee program. These suggestions adhere to the guiding 
principles established by the Fee Council that fees should be 
beneficial, fair and equitable, efficient, consistent, implemented 
collaboratively, convenient, and they should provide for accountability 
to the public.
    A permanent recreation fee program should: (1) promote interagency 
coordination; (2) establish an interagency national pass; (3) enhance 
partnerships with states and gateway communities; (4) establish agency 
site-specific and regional multi-entity passes; (5) provide for a new 
system of basic and expanded recreation fees; (6) provide for better 
reporting on the use of revenues; (7) provide necessary authorities to 
implement the program; and (8) provide criteria for accountability and 
control of revenues collected.

1. Promote Interagency Coordination
    There has been debate in Congress and with the public as to whether 
an interagency recreation fee program should be permanently 
established. The Department believes the question should be asked if 
the public is benefiting from enhanced recreational facilities, 
settings and services that result from a fee being charged. If this is 
the case, we suggest that an interagency recreation fee program is 
needed. More and more people are recreating on a national forest. 
Whether they are visiting a day-use site like a trailhead, or 
recreating at a developed campground, visitors to public lands expect 
the same amenities, facilities, and services as those enjoying a 
national park.
    As Assistant Secretary Lynn Scarlett stated, examples of areas 
where the public does not differentiate between land management 
agencies, but expects the same amenities and use of the land in similar 
locations, is the red rocks areas in Nevada, Arizona, and Utah. 
Visitors to these areas can recreate on lands managed by the Bureau of 
Land Management (Red Rock Canyon National Conservation Area in Nevada), 
lands managed by the Forest Service (the Sedona Red Rocks Area in 
Arizona), and lands managed by the National Park Service (Arches 
National Park in Utah). In all three areas, similar recreation 
opportunities exist within the various natural settings and 
opportunities vary depending on the area selected. Public expectations 
though, for the same amenities and services in each area are the same.
    The authorization of an interagency recreation fee program would 
enhance coordination among agencies and create a seamless, 
collaborative, efficient, and effective fee program that is well 
understood by the public. Such a program would allow land management 
agencies an opportunity to improve the recreational facilities under 
their management and enhance the experience of the visiting public.
    Since the inception of Fee Demo in 1996, the Forest Service has 
shown that it can manage this type of program that provides various 
benefits to the American public. The Department believes permanent 
recreation fee authority is needed so we can continue to provide 
recreational opportunities and services to those who recreate on 
Federal lands. The Forest Service Fee Demo program has generated over 
$161 million to enhance the visitor experience at 105 projects in 123 
National Forests and Grasslands across 36 States and Puerto Rico. In 
2003, the Agency's program generated $38.7 million dollars. The funds 
from this program have made a crucial difference in providing quality 
recreation services to the public, reducing the maintenance backlog, 
enhancing facilities, improving visitor services and operations, 
strengthening public safety and security, developing new partnerships, 
educating America's youth, and conserving natural resources. Some 
examples include:

  <bullet> Maintaining 465 miles of trail on the Deschutes National 
        Forest in Oregon.
  <bullet> Rehabilitating the Scioto Shooting Range on the Cherokee 
        National Forest in Tennessee (installation of target walkways, 
        shooting tables, and a sound abatement berm).
  <bullet> Replacing 8 picnic tables, 40 fire rings with grills, and 1 
        water tank on the Klamath National Forest in California.
  <bullet> Upgrading concrete walkways and paths for better 
        accessibility on the Payette River Recreation Complex (Payette 
        National Forest).

    As stated above, the Forest Service has been able to use Fee Demo 
revenues in areas that benefit the American public. An interagency 
recreation fee program would allow the Forest Service, along with the 
other agencies in the Department of the Interior, an opportunity to 
continue to provide the recreation settings, services, and facilities 
that the American public expects when visiting their Federal lands. 
Interagency coordination is needed to ensure recreation fees are 
convenient, consistent, and beneficial.

2. Establish an Interagency National Pass
    With the establishment of an interagency recreation fee program, an 
interagency national pass should be created. By consolidating the 
Golden Passport program established under the LWCFA and the National 
Parks Passport (established in 2001), an interagency pass would 
decrease visitor confusion. Currently the Golden Eagle, Golden Age, and 
Golden Access passports are accepted on Forest Service units that 
charge an entrance or basic use fee, but the National Parks Pass is not 
accepted as this pass is only valid at National Parks, unless the pass 
has been upgraded with a Golden Eagle hologram. Any interagency 
national pass should still be provided to seniors at a discount and 
free of charge to people with a permanent disability.

3. Enhance Partnerships with States and Gateway Communities
    An interagency recreation fee program will provide a foundation to 
seek new partnerships with other Federal, State, County, and Gateway 
Communities as needed. By expanding the avenues for collaborative 
efforts, we enlist others to help us to meet the recreational demand of 
the visiting public. The Forest Service has developed numerous 
partnerships over the years to help us in delivering a successful Fee 
Demo program. A permanent fee program would allow the Forest Service, 
along with the Interior agencies, to make long-term investments on 
current partnerships and initiate new partnerships where needed.
    Along the South Fork of the Snake River in Idaho a partnership 
between Federal, State, and local entities has evolved to cooperatively 
manage recreation sites spread along a 62 mile stretch of the Snake 
River. The use of fees collected from boat launching, and other 
activities in the river corridor, is determined on a consensus basis by 
the partnership group, regardless of which jurisdiction collects the 
fee. The partnership includes the Forest Service (Caribou-Targhee 
National Forest), the Bureau of Land Management, the Idaho Department 
of Fish and Game, and Madison, Bonneville, and Jefferson Counties. 
Revenues from the program include providing restroom facilities and 
litter control along the river.

4. Establish Agency Site-Specific and Regional Multi-Entity Passes
    Any permanent recreation fee authority should also allow agencies 
to establish agency sitespecific or regional multi-entity passes in 
addition to an interagency national pass. In some cases; regional 
passes meet the needs of visitors who want to recreate only in a 
certain area or state. The Washington and Oregon Recreation Pass is a 
good example of a regional pass that crosses many jurisdictional 
boundaries. Another example of a regional pass is the Visit Idaho 
Playground Pass.
    The Visit Idaho Playground Pass is an interagency program operated 
by the Forest Service, Bureau of Land Management Bureau of Reclamation, 
National Park Service, and the Idaho Department of Parks. The pass is 
valid for those who choose to recreate on public lands in Idaho. Passes 
are available for purchase via a website, or by a toll-free number for 
visitor convenience. Revenues are shared according to a formula 
developed for the business plan, and revenues are directed back to the 
recreation sites for improvements in facilities and services.

5. Provide for a New System of Basic and Expanded Recreation Fees
    As stated previously, the Forest Service in 2003 started accepting 
the Golden Age, Golden Eagle, and Golden Access passports at over 1500 
sites, where previously only 18 sites accepted them. These passports 
are honored usually where an entrance fee is charged, not a use fee. A 
new structure should be developed that is based on use of the sites and 
facilities, not entrance into a particular site. This new fee structure 
would reduce fee layering and develop some consistency among and within 
agencies to avoid visitor confusion and frustration about what 
constitutes an entrance fee and what constitutes a use fee.
    A new system of basic and expanded recreation fees should minimize 
fee layering of entrance and use fees. Under the new system, the basic 
fee would be charged in an area that has some expenditure in services 
and facilities, and an expanded fee would be charged in areas where 
additional facilities or amenities are provided, such as a developed 
campground or boating area, specialized interpretative services or a 
transportation system.

6. Provide for Better Reporting on the Use of Revenues
    The Department believes any permanent recreation fee program should 
have components for ensuring the agencies are accountable to Congress 
and the public and report revenues and experrditures. Agencies should 
collect good data and publish annually public documentation showing how 
the fee program is administered. In producing a report, the Department 
would evaluate fee programs to consider the cost of collection, 
adherence to policy, use of revenues, fiscal safeguards, and how well 
organizational, site, or community goals are achieved.
    The Departments of Agriculture and the Interior are preparing the 
Fiscal Year 2003 Recreational Fee Demonstration Program Progress Report 
to Congress. This report should be sent to Congress shortly, and we 
look forward to any constructive feedback you may have after reviewing 
the report.

7. Provide Necessary Authorities to Implement the Program
    Any permanent recreation fee program should provide authority for 
the Federal land management agencies to work with volunteers, develop 
fee management agreements with any governmental or nongovernmental 
entities, and establish procedures to protect fees collected (law 
enforcement). In some cases, the Forest Service has implemented Fee 
Demo utilizing a large cadre of volunteers to sell recreation fee 
passes, maintain trails, clean facilities, refurbish buildings and 
archaeological sites, and provide educational programs. An example 
includes the Adventure Pass Program in Southern California, which is 
implemented through the use of private sector vendors (small and large 
local businesses) who sell the pass at over 400 locations to 
communities near the forests. Use of private vendors makes it 
convenient to purchase an Adventure Pass in advance of a trip to the 
forest.
    An important component of a recreation fee program is enforcement 
of fee payment and security for the receipts. For implementation to be 
fair and equitable, a recreation fee program must ensure that everyone 
who uses facilities and services for which a fee is charged pays the 
fee. Security per revenues collected also must be provided.

8. Provide Criteria for Accountability and Control of Revenues 
        Collected
    Accountability is one of the guiding principles established by the 
Fee Council. In being accountable, the Forest Service is collecting 
good data and publishing annually in a report to Congress how the fee 
program is being administered. Fee Demo revenues and expenditures are 
accounted for separately from appropriated funds, which is consistent 
with program authority and Federal Accounting Standards. Because the 
Agency uses several expenditure categories to track fee demo 
accomplishments (categories that were established in the 1996 Fee Demo 
legislation), some reporting overlaps may have existed, but the total 
expenditures accounted for were accurate. Starting with the fiscal 2003 
report to Congress, the Forest Service will reduce the number of 
reporting categories and be more consistent with the Department of the 
Interior in reporting fee revenues and expenditures.

             WORKING WITH COUNTIES IN REVENUE EXPENDITURES

    One of the fundamental lessons the Department has learned from the 
demonstration phase of the program is that support for recreation fees 
is contingent on the revenues being invested directly at the site where 
they are collected. Apportioning some recreation fee revenues to States 
and counties, without targeted investment into the sites where the 
revenues were collected, would create significant problems for the 
program, and may not be acceptable to those who pay recreation fees to 
a particular site.
    Also, some counties provide more services and have a different 
relationship to visitors than other counties and a blanket provision to 
return recreation fees back to a county would not reflect those 
differences. The Forest Service has worked to develop partnerships or 
agreements with local communities, organizations, or county sheriff's 
offices to help us to deliver a successful Fee Demo program, while 
providing some fee receipts to those entities involved in implementing 
the program. Revenue sharing would remove a vital avenue where land 
management agencies can work with local communities and counties to be 
involved in implementing a fee program, and still return revenues to 
the site for enhancement and services.
    The Department understands how local governments in some counties 
where certain Federal lands are located believe they should share in 
recreation receipts. The Department would like to work with the 
Committee to determine what this may mean to a particular site. Any 
decrease in fee revenues would mean less facilities, services, or 
revenue for reinvestment, thus creating a disincentive for having a 
recreation fee at all.
    Another option for working with local governments could be 
development of fee management agreements, where a county could help an 
agency implement a recreation fee program by providing fee collection 
or processing services, visitor reservation services, law enforcement 
to provide additional public safety and security, emergency medical 
services, or marketing resources. These fee management agreements need 
to provide the visiting public with services that are visible and are 
viewed as beneficial by users of fee site.
    On some units, the Forest Service or the Bureau of Land Management 
is currently working with some counties to implement these types of fee 
management agreements. In Arizona, the Tonto National Forest has an 
agreement with the Maricopa and Gila County Sheriffs Offices to provide 
additional law enforcement personnel and emergency medical service 
teams at recreation lakes on busy weekends and holidays. Under 
permanent recreation fee authority, revenue sharing could be identified 
for those state or local governments that enter into such an agreement 
with the Secretary.

                               CONCLUSION

    The Department has learned a great deal from our experiences in 
administering the Fee Demo program and is ready to translate that 
experience into a permanent fee program. With the changes that have 
implemented, from lessons learned, and with development of national 
criteria for the Forest Service's recreation fee program, the 
Department is eager to work with this Subcommittee and the Department 
of the Interior to develop a successful permanent fee program. 
Establishment of permanent recreation fee authority does not mean our 
learning will end. Fine-tuning of the program will continue to occur.
    I look forward to working with you, Mr. Chairman, other members of 
the Subcommittee, and our interagency partners to implement a permanent 
recreation fee program. This concludes my statement. I would be happy 
to answer any questions you may have.

    Senator Craig. Well, thank you very much, Mark and Lynn, 
for your collective testimony because I do think it goes hand 
in glove and it provides us with several opportunities of 
questioning I think as we attempt to establish a record in this 
area.
    Mark, let me start with you and let me start right where 
you left off. The growth of your recreation program budget from 
the $267 million to the $390 million between 1996 and 2000. 
During the same period of time, your rec fee receipts grew from 
nothing to $38 million. Is the GAO data correct? You only 
collected $38 million in recreation fees, yet Congress has 
increased its funding for your recreational programs by more 
than $120 million in that same timeframe?
    Mr. Rey. The exact number would be $127 million. That is 
correct.
    Senator Craig. Some in the Forest Service have suggested 
that an alternative to reauthorization would be to close 
campgrounds and other sites. Given that we have provided a 
nearly 50 percent increase in recreational funding since 1996, 
could you take a moment or two to explain where all of that 
additional money then is going? You did mention inflation and 
that is an appropriate approach.
    Mr. Rey. Inflation over that period has hovered just under 
3 percent, so I think you can reasonably say that half of that 
$127 million was an inflation adjustment. The balance has been 
a response to two factors: one, a dramatic increase in 
recreation use and, second, the need to start dealing with 
capital assets that are approaching the end of their useful 
lives. I think that is where the lion's share of the increases 
has gone.
    Senator Craig. In 1996, the original fee authority mandated 
100 sites to be tested and that 80 percent of these receipts 
would be expended at the site where they were collected. At how 
many individual sites, trail heads, campgrounds, picnic areas, 
et cetera, are you currently collecting recreational user fees 
today? Is it 100 or more?
    Mr. Rey. It is 105 in total. In 2002, Congress lifted the 
cap of 100 fee sites and in that time we have added 5 more 
sites, which I think is also a reflection of the fact that we 
have proceeded cautiously in the ensuing years since 2002.
    Senator Craig. Lynn, I am struggling to understand why the 
Department of the Interior is investing so much energy in 
getting the recreation fee demonstration program authorized for 
the BLM, the U.S. Fish and Wildlife Service, and the Bureau of 
Reclamation. The GAO data consistently suggests that BLM, the 
U.S. Fish and Wildlife Service only account for a total of 6 
percent of the overall recreational fee revenues. So my 
question would be, with so little at stake, what is all the 
fuss about when it comes to non-Park Service DOI agencies and 
fees?
    Ms. Scarlett. Yes, Senator, I think that is a good 
question. As I noted in my testimony, there are really a 
relatively small number of our BLM sites and Fish and Wildlife 
Service refuges that actually charge the fees. So the $4 
million or $5 million that goes to the Fish and Wildlife 
Service and the nearly $10 million or so that goes to the 
Bureau of Land Management go to a fairly small number of sites. 
At Moab, as I mentioned, those fees actually amount to some 
two-thirds of their recreation management budget. At 
Chincoteague, a wildlife refuge, those fees amount to about 40 
percent of their budget. I was at a small satellite refuge, 
Hobe Sound in Florida, which has a very, very small overall 
operating budget. There they are in the midst of the West Palm 
Beach area with millions of visitors. Those fees provide a very 
critical resource for them to increase parking, increase toilet 
facilities, as that demand escalates.
    I do want to mention a second reason why our land managers 
see these as important. The fees actually provide them a very 
immediate and very ready source of funding to address 
escalating recreation demand at the time that it occurs so that 
they can immediately invest in new toilet facilities if demand 
for recreation services has increased rapidly beyond what was 
expected.
    Senator Craig. Thank you very much. My time is almost up, 
so let me turn to Senator Bingaman.
    Senator Bingaman. Thank you very much.
    Let me ask you. Your statement talks about the 
establishment of an interagency recreation fee program, an 
interagency national pass should be created. Is there any 
reason why the administration needs to wait on Congress to 
legislate this? Why can you not just convene an interagency 
task force and do this?
    Mr. Rey. We actually have an interagency Recreation Fee 
Council to assure that some of the mistakes that were made 
during the experimental part of this program are reduced.
    I think, though, that going the next step and changing some 
of the recreation pass systems should involve Congress, first, 
because there are antecedent legislative authorities that we 
might be modifying with regard to the existing Park Service 
program, and second, I think that this is something that needs 
to be durational. It should not be something that changes every 
year. I think this is something we believe strongly that we and 
the Congress ought to work together on.
    Senator Bingaman. I have a sheet here called Recreation Fee 
Demonstration Program, State of New Mexico, which I think you 
folks provided us with today. You have got a chart here on the 
front that says: total revenue from New Mexico, $4,338,361. And 
then you have got three columns for expenditures, and the three 
columns, when you add them up, come to somewhere around $1.85 
million or $1.9 million maybe. So substantially less than half 
of what is collected in revenue is actually expended. Am I 
missing something on that chart?
    Mr. Rey. What you are missing is that we did not include 
all of the expenditure categories on that list. We did not 
include fee collection, which generally accounts for 18 to 20 
percent of the total, and we also did not include any of the 
planning work that goes into the actual construction of the 
assets that are provided here under either maintenance or new 
construction of facilities.
    Ms. Scarlett. I was just actually going to amplify what 
Mark said. You will see in the columns that you are looking at, 
maintenance, visitor services, and resource protection, that 
these are expenditure highlights. There are additional 
expenditures on such things as planning and administration and 
so forth. We could provide you that full breakout and the full 
summary of the total expenditures, if you would like.
    Senator Bingaman. Okay.
    Well, I gather there is some kind of requirement that you 
folks are living with, that at least 80 percent of the revenue 
received at these various sites be actually expended there. Is 
that right?
    Ms. Scarlett. In fact, on BLM sites we keep 100 percent 
onsite. For the Park Service, they have an 80 percent/20 
percent so that high visitor using sites versus lower ones can 
actually benefit from some of that 20 percent.
    Mr. Rey. And that 80 percent has not been a problem. We 
have been able to hit that mark. Of course, the expenditures 
that are not shown on this page are also being expended on that 
site. The planning for a new construction project is part and 
parcel of what is happening on that site.
    Senator Bingaman. Last month we had quite a bit of press 
coverage about an internal Park Service memo directing park 
superintendents to make plans for service cutbacks that were 
necessary because of budget shortfalls. Most of this money that 
is collected through fees is collected by the Park Service, as 
I understand. It certainly is in my State, according to this 
chart. Are the planned service cutbacks that were talked about 
in that memo an indication that this fee program is not working 
the way it should somehow or other?
    Ms. Scarlett. That memo is actually an inaccurate 
reflection is what is going on in the National Park Service. 
The Park Service has higher operating dollars right now per 
acre, per FTE, and per any other measure that one would 
utilize, and in fact, we are ensuring that all visitor services 
are maintained.
    Of the $145 million or $150 million that the fee revenue 
program puts into the National Park Service, one-half of that, 
approximately, goes to deferred maintenance backlog activities. 
The other half goes to enhancing visitor services.
    Senator Bingaman. Let me just ask one other issue. As I 
understood your testimony, Ms. Scarlett, you said that you did 
not object to us putting in the law certain restrictions on the 
ability to charge fees for certain activities. So that is 
something that you think is entirely appropriate and should be 
done if we go ahead and do authorizing legislation on this 
subject?
    Ms. Scarlett. That is correct. We have agreed that there 
have been concerns during the fee demo program over the years 
about charging fees where there are no amenities or for just, 
for example, walking through, driving, through, or other 
activities such as that, and we would like to work with you on 
what those restrictions might be.
    Senator Bingaman. That is all I have, Mr. Chairman.
    Senator Craig. Thank you very much.
    Now let me turn to Senator Burns. Conrad.
    Senator Burns. Mr. Chairman, thank you very much. I think I 
found our money. It went to New Mexico.
    [Laughter.]
    Senator Burns. I have the same question that the Senator 
from New Mexico had when I looked at these numbers here. We had 
collections of $10,779,000 and we only expended $3.2 million. 
So I think our money might have gone to New Mexico. Do you want 
to explain that, Senator?
    [Laughter.]
    Senator Bingaman. Well, if we got it, we misplaced it.
    [Laughter.]
    Senator Burns. You earned it.
    That is the only thing that I was looking at here, and that 
is the only question that I have. There is some question on 
these expenditures and what it costs when you start building 
things back. I know we have got one rule that we were talking 
about this morning with Representative Raney when he came into 
my office, and we are going to try to change that a little bit. 
And there are some things that we will change on this.
    On some services, I think charges are in order in places 
where you have facilities and those facilities need to be 
maintained. I have very few problems with that. But as you 
know, just to walk through and hike and do this thing, well, I 
have very serious problems with that.
    I have a question on my expenditures. You got the 80 
percent on the wrong side here. Is that an error?
    Mr. Rey. I think what we need to do on these sheets is give 
you the full breakdown of expenditures. These are the 
highlighted expenditures in three areas that most people focus 
on, which is maintenance of facilities, visitor services, and 
resource protection. What we have not included is health and 
safety enhancements, additional law enforcement and the 
planning and analysis work that goes into building or repairing 
a capital facility. But we can add to that.
    Senator Burns. I understand that.
    I have no more questions, Mr. Chairman. Thank you very much 
for having the hearing.
    Senator Craig. Well, thank you very much, Conrad.
    We have now been joined by Senator Lamar Alexander. 
Senator, any opening comments you would like to make and 
questions of these two panelists, please proceed.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. I will combine 
the two.
    I welcome the hearing and I thank you for holding it. This 
is an important topic, and I would like, as part of my opening 
remarks, to tell of what we in Tennessee regard as a success 
story with the recreation fee demonstration program. I will 
start with the Cherokee National Forest.
    The Cherokee National Forest, Mr. Chairman, is by Eastern 
standards big. It is 650,000 acres, which is about 150,000 
acres larger than the Great Smoky Mountain National Park. It is 
basically adjacent all around the Great Smoky Mountain National 
Park, so the Cherokee National Forest gets a lot of visitors.
    I learned years ago, Mr. Chairman, that there are some 
pretty big differences in attitudes and conditions sometimes 
between easterners and westerners when it comes to public land, 
and one reason is that the Federal Government owns so much of 
the land out West and there are fewer people in some of the 
States. And then you come to the East where the Federal 
Government owns very little and you have large concentrations 
of people using land. So I try to be sensitive to the fact that 
what might be a problem in Idaho might not be a problem in 
Tennessee or vice versa.
    In east Tennessee, where we have 10 million visitors to the 
Great Smoky Mountain National Park every year, as compared, for 
example, with 3 million to Yellowstone, and where we have 8 
million to the Cherokee National Forest--they may not be 
absolute figures. 2.5 million campers, maybe 4 million or 5 
million people who drive through to visit. The recreation fee 
demonstration program has been very, very welcome and is 
strongly supported. I would like to add my support to it as 
well.
    Since 1998, the Cherokee National Forest has been able to 
use 95 percent of the recreation user fees they collected, and 
over those 6 years, that has amounted to about $3 million. That 
has been a big help. They have used it for new water systems. 
They have used it for new tables. They have used it for new 
fire rings, bear-proof trash cans. I go in those mountains a 
lot and those areas a lot. The personnel there are very 
limited. There are problems with drug use sometimes back in the 
mountains.
    This is something that the chairman is very familiar with. 
We have got a pine beetle problem in our area, and one of the 
most dangerous places you can be these days is not on the 
highways, but out camping or hiking or walking because of the 
trees that need to be taken away from the areas where people 
are. And if you are in a large expanse in part of the West 
where people rarely go, that may not be as much of a problem, 
but if you are in the Cherokee National Forest where you might 
have 8 million visitors a year, you have got a real problem if 
you do not clean out some of the dead wood.
    So this has been a big help and it has worked very well. I 
have heard no complaints. While I have not interviewed 
everybody in east Tennessee, I believe the overwhelming 
attitude would be that we are happy to pay a reasonable user 
fee if it is used to keep up the Cherokee National Forest that 
we enjoy.
    I would say that same is true with Land Between the Lakes, 
which is completely the other end of the State, out in Kentucky 
and Tennessee. It has 2 million visitors a year, and it will 
benefit from the program.
    We took a look at this back in 1986 when I was the chairman 
of President Reagan's Commission on Americans Outdoors where I 
got good exposure to some of the differences in conditions 
between what happens in the West and what happens in the East. 
But the idea of a reasonable user fee was broadly endorsed by 
all the members of the commission. And it was a very diverse 
commission of conservatives and liberals and Republicans and 
Democrats and outdoor recreation enthusiasts. And we all 
thought that if it were a reasonable fee, that people would 
welcome that. So that is my endorsement of the idea.
    I guess my question would be this. So that people in places 
like the Cherokee National Forest can enjoy the advantage of 
having the benefit of a reasonable user fee, what steps will 
you take to make sure that, in other parts of the country where 
it might be more difficult to apply a reasonable charge for a 
service, you do not mess it up in those areas so you deny us 
the chance to have such a fee?
    [Laughter.]
    Ms. Scarlett. Mark, do you want to take that or do you want 
me to?
    [Laughter.]
    Senator Craig. We do not allow the shifting of blame or 
responsibility in this committee.
    [Laughter.]
    Ms. Scarlett. Since we never messed anything up at 
Interior----
    [Laughter.]
    Ms. Scarlett. Senator, let me tell you what we are doing at 
Interior to bring some discipline to the process. As I 
mentioned earlier, the Bureau of Land Management for any fee 
proposal must first have a special recreation area designation. 
That goes through a land use planning process and all of the 
public commentary and so forth associated with that.
    In addition, BLM has begun to utilize its resource advisory 
councils. These are a cross section of the public to 
participate in helping to determine where fees might be 
appropriate. The Bureau of Land Management then also must 
present a business case and ultimately the State director 
approves that business case for any fee proposals.
    In turn, as a further protection, the Bureau of Land 
Management actually puts such fee proposals in the Federal 
Register for public comment. So no fee goes forward without 
that long process and that careful public scrutiny occurring.
    The Fish and Wildlife Service has a somewhat different 
approach, but again, all fees must ultimately be approved by 
the Director of the Fish and Wildlife Service after having 
presented a business case, looked at market surveys to see the 
commensurability of fees with like activities elsewhere.
    So we believe we now have a very disciplined process in 
place. We certainly would like to work with Congress if they 
think additional safeguards are needed.
    Mr. Rey. One of the things that we have come to recognize 
in experimenting with this program is that the half-life of 
screw-ups is very long.
    [Laughter.]
    Mr. Rey. What we have done is to institute procedures not 
dissimilar to the ones that Assistant Secretary Scarlett has 
described in installing good business planning and public 
participation before any new fees are initiated. And most 
recently, as a result of our January 2004 blueprint for how the 
program should work, based on the results of the experiments to 
date, we have started to pull back the program from places 
where it was not appropriate and where additional value was not 
being offered to recreation users at a specific site. I think 
since January, we have decommissioned roughly 400 places where 
fees were charged that are not now being charged.
    Senator Alexander. Mr. Chairman, I thank you for the time. 
I would just observe. I genuinely thank you for the hearing.
    In my short time here, I think that one of the underused 
powers of the U.S. Senate is oversight, that we do not do 
enough of it, and I think this is a good example of where there 
are lots of judgment calls to make over a period of time and 
maybe one of the things this committee can do over time is just 
what it is doing today, is on a regular basis get a report 
about what is going well, and what has not gone so well.
    But I just hope we do recognize that this is a big country 
and there are different conditions in different parts of the 
country, and we do not need to force a rule that works in east 
Tennessee on rural Wyoming or vice versa, and that if there is 
a mistake here or there, that we would like to know about it 
and we would like for you to make the adjustments. But I would 
like it not to invalidate an entire program which has in my 
opinion a very good basis for going forward to improve 
recreational opportunities in America.
    Thank you, Mr. Chairman.
    Senator Craig. Well, thank you, and I think those comments 
are well spoken. I agree with you. I had said in my opening 
statement, while I have general opposition, I recognize the 
necessity in targeted areas where amenities have been developed 
and services are expected and needed, not only for the using 
public, but certainly also to protect and maintain the quality 
of the environment, that fees may well be appropriate.
    A couple of last questions. Lynn, I see that in the GAO 
data that it costs the Park Service about 25 percent of what it 
takes in to collect the recreation users fee. What does it cost 
the BLM, the U.S. Fish and Wildlife Service, and the Bureau of 
Reclamation to collect their recreation fees, do you know?
    Ms. Scarlett. Actually the most recent figures for the 
National Park Service are that they have been able to bring 
that down closer to 20-21 percent.
    Senator Craig. Good.
    Ms. Scarlett. And for the Fish and Wildlife Service and the 
Bureau of Land Management, the cost of the fee ranges between 
about 13 percent and 18 percent. So they have actually managed 
to become much more efficient over time at their fee 
collection. In fact, I was out at a Park Service location in 
Colorado just last week, and they have been able to bring their 
costs down to almost zero by using unmanned collectionsites at 
one particular park location.
    Senator Craig. Well, I make the observation that if a 
national sports team had to spend 25 percent of its take just 
to get it, there would be a lot fewer high-paid athletes in the 
country. Obviously, the private sector has got it down to an 
art, and it appears that still, if you are talking down in the 
20 range, while that is an improvement, that is still a 
substantial cost. If you are trying to use these fees to 
generate benefits of the kind that you are obviously trying to 
generate, there needs to be a real focus on the business side 
of managing this revenue flow.
    Ms. Scarlett. Senator, I would agree with you and, of 
course, we have been attempting over the last 2 years to bring 
those costs down.
    I will make two additional comments, though. One of the 
reasons we look forward to a permanent or more enduring rec fee 
authority is so that we will able to make some long-term 
investments in some automation and other kinds of fee 
collection systems that could help bring those costs down.
    Second, the administrative costs are a little bit 
misleading because many of these costs are also associated with 
personnel who are providing collateral services as well, for 
example, also providing visitor interpretation service or 
communication and information to visitors, not just simply 
standing at a booth and collecting fees.
    Mr. Rey. And all of our players are cheaper than Alex 
Rodriguez.
    [Laughter.]
    Senator Craig. Yes, Mark. Well spoken.
    Well, let me thank you both for being here today. I think 
this committee wants to work with you. Certainly the Senator 
from Tennessee has spoken well of the differences that exist 
across this great country of ours. And as I have said, I would 
not oppose targeted, effectively collected and implemented 
recreational fees.
    But I hope you understand that we are not going to start 
managing the Forest Service, the BLM, and wildlife refuges as 
if they were national parks. I would certainly resist that 
attitude that some employees, I think, of the agency have of 
``if we build it, they will pay and they will be happy about 
it.'' That is not true in the State of Idaho. You heard other 
western Senators express great skepticism as we approach this 
clear need for new revenue, different kinds of revenue for 
these public land resource management agencies. We will 
struggle with that, and working together, I think we can 
resolve it.
    I do agree that what starts out as an appropriated approach 
in demonstration does at some point need to be thoroughly 
vetted and authorized through this committee structure.
    So we thank you both for being with us today.
    Mr. Rey. Thank you.
    Ms. Scarlett. Thank you.
    Senator Craig. Again, thank you very much. And we will ask 
the second panel to come forward.
    Once again, we thank you all very much for being with us 
today as we work to build a record on the recreation fee 
demonstration program and where the Congress may go with it 
from here.
    Let us start, and I will start to my left, Commissioner Ted 
Anderson, commissioner from Skagit County, Washington, Mount 
Vernon, Washington. Commissioner, welcome before the committee.

STATEMENT OF TED ANDERSON, COMMISSIONER, SKAGIT COUNTY, WA, ON 
    BEHALF OF THE NATIONAL ASSOCIATION OF COUNTIES AND THE 
            WASHINGTON STATE ASSOCIATION OF COUNTIES

    Mr. Anderson. Before I begin, I would be happy to pay the 
fee that you are charging for this room if I could get a 
receipt for our State auditor. They have been somewhat critical 
of my travel budget.
    [Laughter.]
    Senator Craig. A point well made.
    Mr. Anderson. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee. My name is Ted 
Anderson and I am a member of the Board of County Commissioners 
of Skagit County in the State of Washington. I am testifying 
today, though, as vice chair of the Public Lands Steering 
Committee for the National Association of Counties. NACo is the 
national association of America's 3,066 counties and seeks to 
ensure county officials' voices are heard and understood in the 
White House and in the halls of Congress.
    It is my privilege to represent the Washington State 
Association of Counties. WSAC members include elected county 
commissioners, council members, and executives from all of 
Washington's 39 counties. Each year WSAC works with NACo to 
promote positions that help counties serve our citizens.
    I thank the subcommittee for scheduling this hearing on the 
recreation fee demonstration program.
    As you are well aware, during the debates leading to the 
establishment of the national forest system, Congress concluded 
a compact with rural communities within and adjacent to the 
lands to be reserved. This was premised on the notion that the 
communities should be compensated for foregone economic 
opportunities through sharing revenues from the national 
forests for the maintenance of essential local public 
infrastructure and services, especially schools and roads.
    With regard to this compact, the Forest Counties Payments 
Committee concluded in its February 2003 report that Congress 
promised that these lands would be forever managed for multiple 
uses and that the revenues derived from this management would 
be shared with the communities. And in fact, both State and 
Federal courts have ruled that the 25 percent fund revenue 
sharing payments were not to be considered as payment in lieu 
of taxes but as grants or payments as compensation for impacts 
associated with the removal of land from potential development.
    NACo and WSAC believe that this compact is now and should 
remain in full force and effect. Its unambiguous and explicit 
acknowledgement should inform all policymaking regarding 
national forest management, including recreation management.
    Regrettably, from the enactment of the first recreational 
fee demonstration program, amounts collected pursuant to its 
authorities were not taken into account for purposes of the 25 
percent fund. This practice must be stopped. At a time when a 
broad national consensus is building around locally based 
collaborative models of resource management, it makes no sense 
to undermine one of the historic institutions binding 
communities to the sustainable stewardship of public lands.
    While the amounts generated for the counties would, 
admittedly, be small, the value we believe remains. 
Strengthening, not eroding the ties that bind local communities 
to the forests should be their aim.
    Movement toward that aim can be achieved by giving more 
specific congressional direction to the Federal agencies to 
consult and collaborate with local governments in all aspects 
of recreation fee programs. While NACo has to date no specific 
policy recommendation as to the advisability of extending or 
making permanent the recreation fee authority, if the authority 
were to be extended, we have no doubt that it would be more 
successful if implemented in cooperation with the local county 
governments. Our experience has taught us that where recreation 
fee demonstration projects have been successful, it has been 
due in no small part to the fact that the Federal managers in 
those instances worked with the local counties to design and 
implement them. Conversely, opposition and outright revolt 
against the program have been the result of projects designed 
in isolation and imposed on communities with little or no 
regard for the input of elected officials.
    NACo and WSAC ask that any extension of the recreation fee 
authority require formal consultation and collaboration with 
community stakeholders convened by their elected local 
officials to select and prioritize projects to be funded. 
Furthermore, in order to enhance local collaboration and to 
ensure its ongoing success, the public needs better access to 
information about these projects. At a minimum, a clear 
accounting of the funds generated locally should be provided to 
the counties on an annual basis.
    Again, Mr. Chairman, I want to thank you for holding this 
hearing and for giving me the opportunity to present the views 
of NACo and WSAC for the record. We look forward to working 
toward a more complete fulfillment of the original promise of 
that 100-year-old compact between the counties and the Federal 
Government, a full partnership leading to vibrant local 
communities and a healthy natural environment.
    An additional comment that you will not find here is that 
what has become known as the Craig-Wyden bill, Public Law 106-
393--I think the one component of that, the title II part, is a 
great model where we formed resource advisory committees. We 
work in collaboration with the Forest Service, and I think it 
has been a really healthy thing.
    One other additional comment. Road closures by the Forest 
Service at least in my area, when we are talking about 
recreation and access, let us not forget the handicapped and 
the senior citizens that utilize those roads to access those 
lands. And they certainly have as much right to be there as the 
athletically elite.
    Thank you, Mr. Chairman.
    Senator Craig. Well, thank you very much for that 
testimony. We will complete the testimony of all our panelists 
before I ask or Lamar asks any questions.
    Now let me turn to Carl Wilgus, administrator, State of 
Idaho Department of Commerce, Division of Tourism, Boise.
    Carl, welcome.

  STATEMENT OF CARL WILGUS, TREASURER, WESTERN STATES TOURISM 
                         POLICY COUNCIL

    Mr. Wilgus. Thank you, Mr. Chairman. It is an honor and 
pleasure for me to be present here for these comments this 
afternoon on behalf of the Western States Tourism Policy 
Council.
    I am Carl Wilgus and I am treasurer of the WSTPC. I am also 
the State Tourism Director for Idaho, a position in which I 
have been proud to serve for 17 years. As with other State 
tourism offices, our job in Idaho is to help increase the 
contributions of tourism and recreation to the economy of our 
State and its communities. In Idaho, tourism and recreation 
have a very substantial economic impact indeed, generating more 
than $2.2 billion in annual revenue and supporting 42,000 jobs, 
more jobs than any other industry in the State.
    The WSTPC is a consortium of the 13 Western States' tourism 
offices. Our mission is to support public policy that enables 
tourism and recreation to have an optimum, positive economic 
and environmental impact on the American West.
    In all 13 WSTPC States, tourism and recreation industries 
are major components of their States' economies. As you know so 
well, Mr. Chairman, the magnificent Federal public lands are a 
major attraction for millions of domestic and international 
visitors to the West who contribute billions of dollars to our 
economy.
    Not only are the Federal lands a critical tourism draw for 
the West, their accessibility also contributes very 
substantially to the quality of life for residents who can so 
easily take advantage of the scenic and recreational appeal of 
those lands in their back yards.
    Since formation of the WSTPC in 1996, we have recognized 
the critical importance of the recreation fee demonstration 
program and regard it a priority issue on the WSTPC agenda. Mr. 
Chairman, the position of the WSTPC is to support authorization 
of a permanent or long-term reformed fee program. We believe it 
is imperative that the authorization of fee demonstration 
include at least all four agencies now in the program. While 
the problems that have manifested themselves have not occurred 
equally at all four agencies, the budget pressures on all four 
agencies are the same. The visitors who use and enjoy the 
Federal lands often do not understand or appreciate the agency 
boundaries, and it is critical that the implementation of the 
fee program be coordinated and consistent for all agencies.
    We would further support expansion of the program to 
include the Bureau of Reclamation and the U.S. Army Corps of 
Engineers.
    The WSTPC believes the case for fee demonstration 
transcends budgetary needs and that fee demos have the 
potential to: one, enhance the visitor experiences; two, 
engender greater public appreciation for Federal lands; three, 
help agencies manage access to overcrowded areas; four, 
encourages greater stakeholder participation in Federal land 
management decisions; and five, encourages greater interagency 
and interdepartmental cooperation.
    The WSTPC realizes that the agencies themselves have taken 
meaningful steps to reform the fee demo program. The Federal 
Recreation Fee Council has greatly improved interdepartmental 
and interagency coordination and helped make the overall 
program more consistent and rational.
    We are also encouraged by the 2003 Forest Service Blueprint 
for Recreation Fees, which shows an awareness of the problem 
and outlines several promising initiatives. In Idaho, both the 
Forest Service and BLM have actively solicited the views of 
local government officials and the public regarding design and 
implementation of the fee demo.
    A permanent authorization would give the agencies with 
maximum certainty to facilitate long-term planning. If, 
however, Congress believes it is advisable to review the 
effectiveness of the reforms in the program, we believe a 6-
year reauthorization, similar to the Federal surface 
transportation authorization, would prove a reasonable balance 
between agency planning needs and time to assess the impact of 
future reforms.
    For the fee demonstration program to fulfill its promise, 
some reforms are necessary. The WSTPC recommends that several 
changes in the program be mandated in authorizing legislation 
including:
    One, development of more interagency/intergovernmental 
regional entrance fees, i.e., the VIP Pass in the State of 
Idaho, the ones that we have heard about in Washington and 
Oregon.
    Two, clear authority for the agencies to collect fees for 
each other.
    Three, utilization of State tourism offices to identify 
areas with special tourism or recreation appeal.
    Four, utilization of State agencies and local gateway 
businesses to collect fees.
    Five, utilization of differential fee pricing to respond to 
seasonal demand fluctuations.
    Six, utilization of a portion of the fee revenues for 
public information, education, and communication programs.
    Seven, development of a local advisory process involving 
State tourism offices and gateway communities.
    Eight, establishment of a national recreation fee advisory 
board.
    And nine, retention and use of 80 percent of the revenue 
from special use permits at locations where it is collected.
    The WSTPC realizes that fee revenues will never be 
sufficient to meet the budget needs of the Federal land 
agencies. At same time, it seems likely that stringent demands 
on the Federal resources will create severe pressures on 
natural resource agency budgets. With that in mind, we strongly 
urge Congress to undertake a more comprehensive review of the 
fiscal needs of these agencies and consider a wide range of 
options including integrated fee strategies, public-private 
partnerships, Federal land bonds, encouragement of volunteer 
support, technological innovations, and other alternatives.
    On behalf of the Western States Tourism Policy Council, I 
thank you, Mr. Chairman, for the opportunity to come before 
your subcommittee today.
    [The prepared statement of Mr. Wilgus follows:]

 Prepared Statement of Carl Wilgus, Treasurer, Western States Tourism 
                             Policy Council

    Mr. Chairman, it is an honor and pleasure for me to present these 
comments to you this afternoon on behalf of the Western States Tourism 
Policy Council (WSTPC) regarding implementation of the recreation fee 
demonstration program (fee demo) by the USDA Forest Service and the 
Bureau of Land Management.
    I am Carl Wilgus and I am Treasurer of the WSTPC. I am also State 
Tourism Director for Idaho, a position in which I have been proud to 
serve for seventeen years. As with other state tourism offices, our job 
in Idaho is to help increase the contributions of tourism and 
recreation to the economy of our state and its communities. In Idaho, 
the tourism and recreation industry has a very substantial economic 
impact indeed, generating $2.2 billion in annual revenue and supporting 
42,000 jobs, more jobs than any other industry in the State.
     the western states tourism policy council interest in fee demo
    The WSTPC is a consortium of thirteen western state tourism 
offices, including the states of Alaska, Arizona, California, Colorado, 
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, Washington 
and Wyoming. The mission of the WSTPC is to support public polices that 
enable tourism and recreation to have an optimum, positive economic and 
environmental impact on the American West.
    In all thirteen WSTPC states, the tourism and recreation industry 
is a major component of the economic base of the states and hundreds of 
their communities. In every western state, tourism and recreation is 
either the first or second greatest source of jobs. And as you know so 
well, Mr. Chairman, the magnificent Federal public lands are a major 
attraction for millions of international and domestic visitors to the 
West who contribute billions of dollars to our economies.
    Not only are the Federal lands a critical tourism draw for the 
West, their accessibility also contributes very substantially to the 
quality of life for residents who can so easily take advantage of the 
scenic and recreational appeal of those lands in their backyards.
    Since formation of the WSTPC in 1996, we have recognized the 
critical importance of the recreation fee demonstration program (``fee 
demo'') and regarded it as a priority issue on the WSTPC agenda. We 
believe that the hundreds of millions of dollars that has been 
generated by fee demo, with eighty percent retained for use at the 
lands where it is collected, have enabled hundreds of projects to be 
completed, significantly reducing the infrastructure maintenance 
backlog that has plagued these agencies for decades. The result has 
been to improve the Federal lands experience for both visitors and 
residents. We have closely followed the implementation of the program 
by the four Federal agencies given this responsibility by Congress, 
submitting several statements to Congress during this period in broad 
support of fee demo while recommending substantial reforms in the 
program.
    Mr. Chairman, it is appropriate at this time to commend you and 
this subcommittee, as well as other authorizing committees and 
subcommittees in both Houses of Congress, for reviewing the fee demo 
program as part of your authorization responsibilities. Since its 
inception, fee demo has been sustained solely through the Congressional 
appropriations process. While the appropriations committees have made a 
significant contribution to the vitality of our Federal lands through 
establishing and extending the innovative fee demo program, as the 
appropriators themselves recognize, it is now time for the authorizers 
to decide the future of fee demo.

                   IMPORTANCE OF FEE DEMO TO THE WEST

    It is clear to us that fee demo has benefited the Federal lands in 
the West, allowing them to serve their visitors better and, thereby, to 
have an even more positive impact on state and gateway community 
economies. The following are 2003 data from twelve western states 
showing how much was invested that year in the national forests and BLM 
lands in those states directly from revenue collected and retained from 
fee demo. Please note that these figures are for one year only and do 
not include fee demo expenditures by the National Park Service or the 
Fish & Wildlife Service.

------------------------------------------------------------------------

------------------------------------------------------------------------
Alaska.............................  FS....................   $1,105,442
                                     BLM...................      239,570
------------------------------------------------------------------------
Arizona............................  FS....................   $3,073,879
                                     BLM...................    1,160,785
------------------------------------------------------------------------
California.........................  FS....................   $4,440,304
                                     BLM...................      958,500
------------------------------------------------------------------------
Colorado...........................  FS....................     $872,621
                                     BLM...................      224,930
------------------------------------------------------------------------
Idaho..............................  FS....................   $1,043,861
                                     BLM...................      233,600
------------------------------------------------------------------------
Montana............................  FS....................   $1,463,349
                                     BLM...................      209,687
------------------------------------------------------------------------
Nevada.............................  FS....................          (1)
                                     BLM...................    2,027,800
------------------------------------------------------------------------
New Mexico.........................  FS....................     $266,611
                                     BLM...................       93,450
------------------------------------------------------------------------
Oregon.............................  FS....................   $3,770,303
                                     BLM...................    1,447,650
------------------------------------------------------------------------
Utah...............................  FS....................     $738,860
                                     BLM...................    1,169,614
------------------------------------------------------------------------
Washington.........................  FS....................   $2,169,744
                                     BLM...................       15,200
------------------------------------------------------------------------
Wyoming............................  FS....................     $116,149
                                     BLM...................      135,028
------------------------------------------------------------------------
\1\ No Forest Service Fee Demo Expenditures

    Just a few of the illustrative projects funded by fee demo revenue 
in only three of these states have included:

    Idaho--remodeling of all picnic sites and updating nature trails 
and information in the Caribou-Targhee National Forest; providing nine 
miles of extensive trail maintenance in the Clearwater NF; producing a 
new water safety brochure, ``Wildwater Wisdom'' in the Boise NF; 
replacing all boat docks and widening roads, adding culverts and five 
campground spurs in the Milner Historic Recreation Area.
    Arizona--cleaning up 16,300 pounds of ground trash in the Coconino 
NF; reconstructing an old Civilian Conservation Corps retaining wall in 
the Tonto NF; repairing nine historic rock bridges in the Coronado NF; 
installing new restrooms at Lake Havasu.
    Washington--providing more than half the operation and maintenance 
costs for Coldwater and Johnston Ridge Visitor Centers at Mount St. 
Helens National Volcanic Monument; hiring four trail crews to maintain 
787 miles of trails in the Mt. Baker-Snoqualmie NF; providing climbing 
services including hiring climbing rangers for Mt. Adams and Mount St. 
Helens; replacing needed picnic tables, signs and fire rings and 
constructing a wildlife viewing platform in the Yakima River Canyon.

    Several of these and other ``fee demo projects'' have involved the 
use of grants from State agencies and nonprofit organizations, but it 
has been fee demo revenue that has enabled the Federal agencies to 
provide their matching share and benefit from such vital partnerships.

                             WSTPC POSITION

    In essence, Mr. Chairman, the position of the WSTPC is to support 
authorization of a permanent or long term, reformed fee program for all 
four agencies now included in the program--the National Park Service, 
the USDA Forest Service, the Bureau of Land Management and the U.S. 
Fish & Wildlife Service--with eighty percent of fee revenue continuing 
to be retained and used at the Federal land location where it is 
collected.
    We believe it is imperative that authorization of fee demo includes 
at least all four agencies now in the program. It is not advisable to 
treat the agencies separately for purposes of fee demo. While the 
implementation problems that have manifested themselves have not 
occurred equally at all four agencies, the budget pressures on all four 
are the same. Moreover, the visitors who use and enjoy the Federal 
lands often do not understand or appreciate agency boundaries and it is 
critical that implementation of fee programs be coordinated and 
consistent for all agencies. We would further support expansion of the 
program to include the Bureau of Reclamation and the U.S. Army Corps of 
Engineers.
    The WSTPC believes the case for fee demo transcends budgetary needs 
and that fee demo has the potential to (1) enhance the visitor 
experience by meeting infrastructure and maintenance needs, (2) 
engender greater public appreciation for the Federal lands by showing 
the value-added benefits of those lands and the recreation experience, 
(3) help agencies manage access to overcrowded areas, (4) encourage 
greater stakeholder participation in Federal land management decisions 
and (5) encourage greater interagency and interdepartmental 
coordination.
    It is critical, however, that fee demo be reformed to address many 
of the justified criticisms that have been raised about the program, 
especially as it has been implemented by the Forest Service and the 
BLM. The WSTPC in these comments will recommend several such reforms.

                         CRITICISMS OF FEE DEMO

    We fully recognize that implementation of fee demo has been 
problematic. Other witnesses before this subcommittee will elaborate on 
criticisms of fee demo implementation. It should be noted that these 
criticisms are, for the most part, much less applicable to the National 
Park Service, which has long experience with administering entrance fee 
programs and as it has implemented fee demo, has for the most part 
simply increased fee levels and expanded the number of entrance fee 
sites. For the Forest Service and BLM, without a tradition of fee 
collection, and often with multiple points of entry onto their lands 
that make enforcement of entrance fees difficult, fee demo 
implementation has necessarily been more varied and more experimental.
    Following is a summary of what appear to us to have been the most 
serious and valid shortcomings of fee demo implementation, especially 
at the Forest Service and the BLM. While significant strides have been 
made by the agencies to address many of these problems, further 
improvements are needed in new fee demo authorization legislation. 
WSTPC recommendations for such improvements will be outlined below:

    1. Fee demo implementation has too often resulted in ``layering'' 
of fees whereby visitors are required to pay multiple fees for 
different services or activities at the same site.
    2. Fees levied at different sites by different agencies have not 
been coordinated to prevent duplicate fees and to ensure that 
comparable fees are charged for comparable services.
    3. Fees have been charged that are disconnected to Federal land 
improvements, with the result that visitors and residents are asked to 
pay for the same services and facilities that have previously been 
available without charge. (This has been a particular complaint of many 
local gateway community residents upset at suddenly having to pay for 
access to the same Federal lands they have always regarded as their 
``backyards'' with virtually unlimited access.)
    4. Related to the preceding point, fees have been charged for 
access to ``dispersed recreation areas'' where the benefits from such 
fees are not self-evident.
    5. Concessioners and permittees, who have already paid their 
contractual fees, made their business and marketing plans and set their 
prices accordingly, have objected strongly when their customers on 
short notice have had to pay additional fees under fee demo.
    6. Local gateway community businesses object that fee revenue has 
been used to modernize or expand facilities on the Federal lands that 
compete unfairly with nearby private businesses.
    7. The Federal agencies have spent too much on implementation of 
the fee demo program.

    In addition to these implementation criticisms, there have been 
what can be termed philosophical objections to fee demo, with three of 
them especially prominent: (1) that fee demo charges Americans for use 
of Federal lands they own and are already paying for through their 
taxes; (2) that fee demo is economically regressive and inhibits use of 
the Federal lands by those with lower incomes; and (3) that fee demo 
encourages commercialization of the Federal lands by forcing the 
agencies to rely more on revenues generated by more visitors, resulting 
in ecological damage to those lands.
    To the extent that such philosophical objections reflect different 
value judgments they are difficult to rebut, but we would make the 
following points. First, it is not at all uncommon to levy user fees 
for government products and services that are principally beneficial to 
individual citizens. Second, a carefully structured and implemented fee 
program can add considerably to the visitor experience on our Federal 
lands and can actually enhance the protection of the environment and 
the preservation of the resource.

                         WSTPC RECOMMENDATIONS

    The WSTPC realizes that the agencies themselves have taken 
meaningful steps to reform the fee demo program. The Federal Recreation 
Fee Council co-chaired by Interior Assistant Secretary Lynn Scarlett 
and Agriculture Under Secretary Mark Rey has greatly improved 
interdepartmental and interagency coordination and helped make the 
overall program more consistent and rational. Although it does not 
address all the concerns about fee demo implementation, we are also 
encouraged by the 2003 Forest Service's Blueprint for Recreation Fees, 
which shows an awareness of the problems and outlines several promising 
initiatives. And the BLM has regularly reviewed and revised its fee 
demo implementation.
    In Idaho, both the Forest Service and BLM have actively solicited 
the views of local government officials and the public regarding design 
and implementation of fee demo projects and have modified the program 
accordingly.
    As indicated earlier, the WSTPC supports authorization of a 
permanent or long term, reformed fee demo program. A permanent 
authorization would provide the agencies with maximum certainty to 
facilitate long term planning. If, however, Congress believes it is 
advisable to review the effectiveness of reforms in the program, we 
believe a six-year authorization similar to the Federal surface 
transportation authorization would provide a reasonable balance between 
agency planning needs and time to assess the impact of future reforms.
    Whether authorization is permanent or long term, the WSTPC 
recommends the following statutory changes in the fee demo program:

    1. The agencies should be directed to develop to the maximum extent 
possible regional access or entrance fees on an interagency and 
intergovernmental basis. Examples of successful use of common fees 
combining agencies and Federal and State public land fees can be seen 
in Idaho, Oregon and Utah.
    2. Agencies should be authorized to develop cooperative agreements 
to collect fees for each other. Although this is apparently now 
occurring in some areas, many local agency managers are unwilling to 
enter into such agreements without clear statutory authority.
    3. Agencies should utilize the expertise and experience of state 
tourism offices to help identify areas with particular tourism and 
recreation appeal that justify entrance or access fees. ``Special 
Places'' with a high degree of such appeal may be identified through a 
selection process similar to that used to designate national scenic 
byways. Designating such ``Special Places'' would be one way of 
avoiding debate over charging fees for areas with dispersed recreation.
    4. State agencies and gateway businesses should be encouraged to 
collect fees so as to substantially reduce Federal collection costs.
    5. If necessary, Federal collection costs should be capped by 
Congress.
    6. Agencies should be encouraged to use differential pricing for 
fees to recognize seasonal market demand.
    7. Some fee revenue--perhaps ten percent--should be used to develop 
public information, education and communication programs for better 
known parks, forests and other lands. Such programs can be coordinated 
with ongoing state tourism office marketing efforts.
    8. The Federal agencies should work more closely with State tourism 
offices and gateway communities in designing and planning fee 
structures. The local advisory process should be formalized through 
advisory groups, perhaps modeled after or incorporated into Resource 
Advisory Councils. NOTE: For an example of how a Federal land agency 
and local community leaders can work productively together as partners 
to make mutually beneficial decisions regarding fee demo, see the 
attached letter from the Bonneville County (ID) Board of Commissioners 
regarding their partnership with the Caribou-Targhee National Forest to 
allocate fee demo funds for projects along the South Fork of the Snake 
River.
    9. A National Recreation Fee Advisory Board, as recommended by the 
American Recreation Coalition, should be established to recommend 
common criteria for fees, oversee agency fee programs, foster 
coordination of fees, review innovative fee proposals, prepare annual 
reports on fee programs and review appeals alleging unjustified or 
inappropriate fees. Both national and local fee advisory groups should 
have members representing those principally paying the fees.
    10. Following the fee demo model, eighty percent of the revenue 
from special use permit fees should be retained and used at the 
locations where it is collected. In the thirteen WSTPC member states, 
the Forest Service collects about $25 million annually in revenue from 
special use permit fees--nearly as much as the agency collects from fee 
demo. Yet the Forest Service (unlike the National Park Service, which 
can use its special use permit fee revenue where it is collected) must 
return all that revenue to the Federal treasury.
    11. The fee program should be carefully monitored in the future 
through the Congressional authorization process.
    12. Authorization legislation should provide Congressional 
assurance that revenue from fees will not be nullified or offset by 
reductions or lower growth rates in agency budgets.

    In addition, the agencies should be encouraged to communicate to 
visitors and the public the benefits of their fee programs in terms of 
providing a better visitor experience. Wherever possible, investments 
from fee revenue should be tangible and visible. Public land users, 
local governments and the tourism and recreation industry should be 
involved in the design and implementation of fee programs.
    Finally, the WSTPC realizes that fee revenue will never be 
sufficient to meet the budget needs of the Federal land agencies. At 
the same time, it seems likely that stringent demands on Federal 
finances will create severe pressure on natural resource agency 
budgets. With this in mind, we strongly urge Congress to undertake a 
more comprehensive review of the fiscal needs of these agencies and 
consider a wide range of options, including integrated fee strategies, 
public-private partnerships, Federal land bonds, encouragement of 
volunteer support, technological initiatives and other alternatives.

                        SUMMARY AND CONCLUSIONS

    The Western States Tourism Policy Council supports long term 
authorization by Congress of the recreation fee demonstration program 
as vital to the viability of the tourism and recreation industry in the 
West. Not only does fee demo provide essential revenue to fund critical 
infrastructure and maintenance projects to improve the visitor 
experience, its potential benefits can be even greater, including 
demonstrating to visitors and the public the valueadded importance of 
the Federal lands, providing an important management tool regarding 
access to overcrowded areas, encouraging a greater stakeholder role in 
land management decisions and encouraging more interagency and 
intergovernmental coordination. The policy of retaining and using at 
least eighty percent of fee demo revenue at the location where it is 
collected must be continued.
    For the fee demo program to fulfill its promise, reforms are 
necessary. The WSTPC recommends that several changes in the program by 
mandated in authorizing legislation, including:

    1. development of more interagency and intergovernmental regional 
access or entrance fees;
    2. clear authority for the agencies to collect fees for each other;
    3. utilization of state tourism offices to identify areas with 
special tourism and recreation appeal;
    4. utilization of state agencies and local gateway businesses to 
collect fees;
    5. utilization of differential fee pricing to respond to seasonal 
demand;
    6. utilization of a portion of fee revenue for public information, 
education and communication programs for better known Federal lands;
    7. development of a local advisory process involving state tourism 
offices and
    gateway communities to help design and plan fee structures;
    8. establishment of a National Recreation Fee Advisory Board;
    9. retention and use of eighty percent of revenue from special use 
permit fees at locations where it is collected.

    Congressional assurance that Federal land budgets will not be cut 
nor have their growth rates reduced to offset fee revenue.
    Finally, we urge that Congress undertake a comprehensive review of 
the short and long term outlook for Federal land agency budgets, 
realizing that recreation fees can only be part of a needed broader 
fiscal strategy for the Federal lands.

    Senator Craig. Well, Carl, thank you for that very detailed 
testimony.
    Now let me turn to Ms. Susan Bray, executive director of 
the Good Sam Club of Ventura, California. Susan, welcome before 
the committee.

          STATEMENT OF SUE BRAY, EXECUTIVE DIRECTOR, 
                 THE GOOD SAM CLUB, VENTURA, CA

    Ms. Bray. Thank you very much, Mr. Chairman. I am Sue Bray 
and I am executive director of the Good Sam Club based in 
Ventura, California. The Good Sam Club is comprised of nearly 1 
million families who own and operate RV's, motor homes, and 
trailers. I really do not know what my user fee charge is going 
to be today, but probably extra.
    Senator Craig. It depends on how long you park it.
    [Laughter.]
    Ms. Bray. But our members often visit Federal 
recreationsites.
    I also serve as a member of the board of directors of the 
American Recreation Coalition, or ARC.
    Quality recreation opportunities on Federal lands are one 
of our central concerns. Fees, though, are not an end for us, 
rather a means to help achieve our goal of great experiences in 
the great outdoors, along with volunteerism, appropriations, 
partnerships, and more.
    The American Recreation Coalition's position on Federal 
recreation fees is to support if the fees are equitable and 
aimed at recovering costs where the services and facilities are 
provided; the fee system is efficient; the fees are convenient 
to the recreationalist; the fee system is coherent, flexible, 
and integrated; the fee revenues are returned to benefit 
resources, facilities, and programs utilized by those paying 
the fee.
    We have closely monitored the actions of the four agencies 
involved in the fee demo program. In general, we consider the 
fee demonstration program to have been a success, but we do 
believe it is time to move forward, commencing a new 6-year fee 
program. We cannot support permanent fee legislation at this 
time for several reasons.
    First, we believe that substantial further experimentation 
and development are needed to capitalize on new technologies 
and communications opportunities, particularly at the local 
level.
    Second, we believe the Congress must underscore to Federal 
agencies that fees are merely one aspect of a program to 
enhance visitor experiences and provide direction on priority 
uses of the collected fees. We also believe that the Congress 
must ensure that the agencies are explaining the fees and their 
use to the public.
    Among the provisions we urge Congress to incorporate are: 
new provisions to stimulate volunteerism on public lands; new 
authorities for creative and innovative partnerships among 
Federal agencies, nonprofits and corporations; retention by the 
agencies of special permit fees paid by outfitters, guides, and 
other recreation service providers; a new effort to communicate 
opportunities in the great outdoors to all Americans, in part 
because of the growing problems with obesity; new provisions 
for enlisting the assistance of corrections agencies and 
military units in caring for America's public lands; and the 
reinvigoration and expansion of interpretive and recreational 
programs.
    We recognize that the Senate now has pending for floor 
action legislation that would deal with fees for a single 
Federal agency, the National Park Service. We cannot support 
passage of that measure for several reasons. We believe that 
recreation fee policies of the Federal agencies should be 
coordinated and complementary and a unified authority would 
best accomplish this goal. We also believe that the legislation 
could be improved with several additional provisions including:

  <bullet> Sunset provisions for fees every 6 years, 
        accompanied by full congressional oversight of the fee 
        program.
  <bullet> Uniformity of fee provisions for all Federal 
        agencies.
  <bullet> Continuation of the local retention of receipts and 
        availability of at least 80 percent of collected 
        recreation fees without any further need for 
        appropriation, public involvement in fees establishment 
        and use, clear and meaningful reporting on the use of 
        the fees, and assurance that the fees will not be 
        offset by reductions in appropriations.
  <bullet> Limitations on automatic authority for Federal 
        recreation fees, primarily focusing on those sites 
        where visitors receive clearly identified services and 
        utilize specific facilities, but also providing a 
        process for adding additional sites to the fee program 
        where key tests, including public support, are met.
  <bullet> Creation of a new national recreation fees advisory 
        board with authority to approve expanded and unusual 
        fee sites with authority to review fee program appeals. 
        A significant number of the board members should 
        represent those paying the fees.
  <bullet> Creation of a new recreation fee site investment 
        account which would allow improvements prior to 
        imposition of new or raised fees.
  <bullet> Investigation and support of the role of RAC's in 
        providing local oversight of the fee program.
  <bullet> And last, local retention of revenues from 
        recreation special permits, concessions, and similar 
        agreements under clear provisions which consolidate 
        fees now charged under such doctrines as cost recovery.

    And finally, the goal is quality recreation experiences, 
not fee revenues. Fees should not undercut better services and 
facilities available through partnerships with State and local 
agencies, volunteers, and friends organizations, concessioners 
and permittees.
    Thank you very much.
    [The prepared statement of Ms. Bray follows:]

          Prepared Statement of Sue Bray, Executive Director, 
                     The Good Sam Club, Ventura, CA

    Mr. Chairman and distinguished Members, I am Sue Bray and I am the 
Executive Director of the Good Sam Club, based in Ventura, California. 
The Good Sam Club is comprised of nearly one million families who own 
and use recreational vehicles--motorhomes and trailers--and are very 
frequent visitors to federal recreation sites. I also serve as a member 
of the Board of Directors of the American Recreation Coalition (ARC), a 
national federation of more than 100 national organizations actively 
involved in meeting the recreation needs of Americans. ARC's members 
produce recreational products ranging from canoes to motorhomes to 
tents, provide services ranging from campsites to downhill skiing and 
represent the interests of tens of millions of us belonging to 
individual membership groups including Good Sam and BoatUS. ARC members 
have a very strong interest in fees at federal recreation sites and 
played a key role in the creation of the National Recreation Fee 
Demonstration Program. I appear in a dual capacity, representing both 
ARC and the Good Sam Club.
    Quality recreation opportunities on federal lands are one of our 
central concerns and we perceive fees as one element in assuring 
members of the public that their visits to their lands will be 
enjoyable and safe. Fees, though, are not an end for us--rather a means 
to help achieve our goal of great experiences in the great outdoors 
along with volunteerism, appropriations, partnerships and more.
    The recreation community enjoys free lunches much as any other 
interest group, but we have come to understand that it is hard to 
demand a great meal when you aren't paying. And we certainly are 
learning to understand that quality recreation on federal lands really 
isn't a free lunch: costs have been borne by general taxes, not user 
fees. However, there is a real downside to that situation. We've seen 
that recreation programs have been underfunded for years, resulting in 
an immense backlog of deferred maintenance and a failure to develop new 
capacity as demand for recreation has grown. Prior to the creation of 
the National Fee Demonstration Program, fees existed but failed to 
contribute to recreation site operations. Campgrounds operating with 
solely appropriated funding opened later and closed earlier--
frustrating millions who sought to use their lands and were willing to 
pay, but who found only locked gates. We saw declines in interpretive 
programs--the ranger walks and campfire talks that have left indelible 
impressions on me and tens of millions of others. We saw recreationists 
and federal officials alike frustrated that no monies were available to 
create and manage opportunities for newly popular recreational 
activities, such as mountain biking and rock climbing. And we learned 
that the rules of the funding game taught federal agencies to look at 
the Congressional appropriators, not visitors, as their customers and 
the American people, their real customers, as an unwelcome burden.
    We took an active part in the national debate on fees hosted by the 
President's Commission on Americans Outdoors (PCAO) from 1985 to 1987. 
Americans across the country made it clear that they were willing to 
pay reasonable fees for quality recreation opportunities--just as they 
will pay reasonable costs for quality sleeping bags and boats. But we 
heard that the agencies had little incentive to charge recreation fees, 
since most fees disappeared into general Treasury accounts. We agreed 
when PCAO called for more financial reliance--but not complete 
reliance--upon visitors to federal recreation facilities to ensure that 
our national parks, national forests, wildlife refuges and public !ands 
remain hosts to outstanding recreation experiences.
    The American Recreation Coalition's position on federal recreation 
fees is support if:

  <bullet> the fees are equitable, and aimed at recovering costs where 
        the services and facilities provided represent significant 
        costs to American taxpayers;
  <bullet> the fee system is efficient, costing the least amount 
        practical to administer;
  <bullet> the fees are convenient for the recreationist, so that 
        voluntary compliance is readily achievable;
  <bullet> the fee system is coherent, flexible and integrated, so that 
        overlapping charges are minimized and federal, state and local 
        fees are integrated where appropriate (such as Sikes Act 
        provisions for hunting and fishing fees on federal lands, 
        collected as a supplement to state licenses, or the Pacific 
        Northwest's winter park program); and
  <bullet> the fee revenues are returned to benefit resources 
        facilities and programs utilized by those paving the fees.

    We applaud this committee's involvement in the origins of the fee 
demonstration program, which has provided an important learning 
opportunity. Across the nation, new fees have been tried and fees have 
been collected in new ways. In a few cases, fees have varied by day of 
the week or season, or have been established cooperatively among 
federal agencies--and in a few instances, with state recreation 
agencies. In addition to the learning going on, federal agencies are 
being furnished immediately with substantial new resources--
approximately $200 million annually--to protect the Great Outdoors 
Legacy we share and to enhance many of the nearly two billion visits we 
make to federal land systems. We also think it is notable and important 
that for the first time, federal officials are now able to answer a 
visitor's simple question about where the fees they pay actually go.
    We have closely monitored the actions of the four agencies involved 
in the fee demonstration program, consulting with local recreationists 
as well as agency officials implementing the program. In general, we 
consider the fee demonstration program to have been a success. But we 
do believe it is time to move forward, ending the short-term nature of 
the demonstration program through the appropriations created process 
and commencing a new, six-year fee program.
    We cannot support permanent fee legislation at this time for 
several reasons. First and most importantly, we believe that 
substantial further experimentation and development are needed in the 
fee area, both to overcome recognized concerns about specific fee 
demonstration projects and to capitalize on new technologies and 
communications opportunities.
    Second, we believe that both now and at some future date, the 
Congress must underscore to federal agencies the view that fees are 
merely one aspect of a program to enhance visitor experiences in the 
Great Outdoors and provide direction to the agencies on priority uses 
of the collected fees. Among the provisions we urge the Congress to 
incorporate in any legislation dealing with fees are:

    1) new provisions to stimulate volunteerism on public lands. We 
urge the creation of a new Take Pride in America Pass, available only 
as recognition of significant volunteer efforts at one or more federal 
sites. In addition to promoting volunteerism, the pass could have other 
beneficial effects. It would provide an alternative for access to those 
who face economic or other challenges regarding fees. This pass will 
eliminate current concerns about the legal uncertainties arising from 
giving passes available for purchase to volunteers--including questions 
about coverage under Workmen's Compensation and protection from 
lawsuits. Moreover, the opportunity to recognize volunteers could 
enable federal sites with little or no opportunity to collect fees to 
benefit indirectly from the fee program. These areas could offer their 
volunteers the ability to be exempted from fees at other federal sites;
    2) new authorities for creative and innovative partnerships among 
federal agencies, nonprofits and corporations, including PPVs (Private/
Public Ventures) and NAFIs (NonAppropriated Funding Instrumentalities);
    3) retention by the agencies of special permit fees paid by 
outfitters, guides and other recreation service providers, and 
treatment of these receipts in a parallel way to direct recreation 
fees;
    4) a new effort to communicate opportunities in the Great Outdoors 
to all Americans, in part, because of the growing recognition of health 
risks arising from inadequate physical activity;
    5) new provisions for enlisting the assistance of corrections 
agencies and military units in caring for America's public lands and 
the recreation facilities on those lands; and
    6) reinvigoration and expansion of interpretive and educational 
programs at federal recreation sites.

    We recognize that the Senate now has pending for floor action 
legislation that would deal with fees for a single federal agency--the 
National Park Service. We compliment the legislation's author and the 
committee for a number of important and meritorious provisions of this 
legislation. Yet we cannot support passage of the measure for several 
reasons. Most fundamentally, we believe that recreation fee policies of 
the federal agencies should be coordinated and complementary wherever 
possible, and a unified authority and common provisions would best 
accomplish this goal. We also believe that the legislation could be 
improved with several additional provisions. Our recommendations for 
amending the legislation recently reported out of the full Committee on 
Energy and Natural Resources include:

    1) sunset provisions for fees every six years, accompanied by full 
Congressional oversight of the fee program as part of a reauthorization 
of fees and appropriate fee program modifications and program 
directions;
    2) uniformity of fee provisions for all federal agencies, including 
the four agencies covered under the fee demo program and the U.S. Army 
Corps of Engineers and the Bureau of Reclamation;
    3) continuation of the local retention of current receipts and 
availability of at least 80% of collected recreation fees without any 
further need for appropriation, public involvement in fees 
establishment and use, clear and meaningful reporting on the use of the 
fees, operation of the fee program as fair, convenient, understandable 
and efficient, and assurance that the fees will not be offset by 
reductions in appropriations;
    4) limitations on automatic authority for federal recreation fees, 
primarily focusing on those sites where visitors receive clearly 
identified services and utilize specific facilities, but also providing 
a process for adding additional sites to the fee program where key 
tests, including public support, are met;
    5) creation of anew National Recreation Fees Advisory Board with 
authority to approve expanded and unusual fee sites and with authority 
to review fee program appeals. The Board would also be responsible for 
preparing annual reports on federal recreation fees. A significant 
number of the Board members should represent those paying fees;
    6) penalties for misuse of fee authority or fee receipts applicable 
to the line officials involved and to the fee site, including a freeze 
on fees and a reduction in local retention of collections from 80% to 
60%;
    7) creation of a new recreation fee site investment account which 
would allow improvements prior to imposition of new or raised fees;
    8) investigation and support of the role of RACs in providing local 
oversight of the fee program;
    9) local retention of revenues from recreation special permits, 
concessions and similar agreements under clear provisions which 
consolidate fees now charged under such doctrines as cost recovery; and
    10) a clear goal of quality recreation experiences--not fee 
revenue--as an outcome, and thus a receptivity to alternative means to 
provide services and facilities on federal lands through partnerships 
with state and local agencies, volunteers and ``friends'' organizations 
and concessioners/ permittees.

    We thank you for your interest and for your willingness to address 
the recreation fees issue comprehensively, fairly and creatively. I 
would be delighted to respond to any questions you might have on our 
suggestions and on our assessment of the successes and lessons learned 
from the National Recreation Fee Demonstration Program. I am joined at 
the hearing today by several ARC members and staff, including ARC 
President Derrick Crandall, who will be able to assist me in responding 
to your questions.

    Senator Craig. Well, Sue, thank you very much. Again, some 
detailed testimony that I think will be very valuable to us as 
we sort through this.
    Now let me turn to Robert Raney, Montana State Parks 
Foundation, from Livingston. Welcome before the committee, 
Robert.

 STATEMENT OF ROBERT RANEY, EXECUTIVE DIRECTOR, MONTANA STATE 
                PARKS FOUNDATION, LIVINGSTON, MT

    Mr. Raney. Thank you, Mr. Chairman. My name is Bob Raney. I 
am from Livingston, Montana. I served 16 years in the Montana 
legislature, all of that time on the Natural Resources 
Committee and on the Fish, Wildlife and Parks Committee.
    I am volunteer director of the Montana State Parks 
Foundation, which is an all-volunteer organization, and we have 
dedicated the last 15 years to research into policy on 
management of public lands in Montana.
    Most of the things that we have come up with and presented 
to the legislature, which have become law, were contrary to 
what the agency wanted but very acceptable to the legislature 
and the citizens of Montana. And so I am here today to support 
Senator Thomas' bill, S. 1107, to abolish access fees to public 
lands, and I am going to use our Montana experience to show 
constructive alternatives to access fees. Mind you, we are not 
concerned with fees for development such as campgrounds with 
shower houses, motor launches, or museums.
    Let me give you a background of what occurred in Montana. 
Between 1989 and 2003, a 14-year period, very little land was 
added to our public recreation areas in the State. However, the 
budget grew dramatically, more than doubling in 8 years, and 
the FTE also grew dramatically. They built visitor centers, 
showers, and amphitheaters, did a tremendous amount of 
interpretive and educational work. Throughout all of that, the 
FTE and the budget kept growing supposedly to maintain all of 
this development.
    However, during this entire time period, maintenance 
deteriorated and continued to deteriorate throughout it all. 
Toilets were stinking all across the State. I visited 100 of 
the 370 sites in Montana, and in most of them, the toilets were 
not usable. Stream banks were eroding away, noxious weeds 
becoming a tremendous problem and extending on to private land, 
boat ramps not reaching the water. At Plentyku State Park, 
insects were in the last chief of the Crow tribe's head bonnet.
    At all of this time they were developing, vandalism grew, 
and because of it, they had to close our parks for 7 or 8 
months a year. So because of the development, we can no longer 
get to our places. And throughout it all, they threw at us the 
Washington Monument syndrome, which is if you do not give us 
more money, we will close operations. We will sell lands, and 
we will curtail operations.
    We gave them fees in 1989. By 1993, the legislature 
recognized that the fees were not going to maintenance. And the 
legislature took one-third of the park system in Montana and 
said, you can no longer develop these beyond where they are now 
developed, and they were not allowed to charge fees to access 
that one-third of the system. But, nonetheless, because of 
Federal dollars, expansion continued in other parks.
    In 1997, the legislature adopted appropriation language 
saying, you are done developing. We want you to maintain what 
we have. And again, because of Federal rules, so many dollars 
coming from the Federal Government that they could use for 
development, this did not work.
    So in 1999, Governor Rocicot and the legislature passed a 
good neighbor policy and defined maintenance. So in the 
statutes, we told them you are going to now do maintenance and 
you are going to cease your development. It still did not work. 
Fees went up and they used the fee money not for maintenance, 
but to match Federal dollars for more growth.
    So finally in 2003, the legislature said, enough chicanery 
is enough, and abolished access fees to Montana lands.
    You have heard a lot today about user demand for 
development and enhanced services. Let me give you a Montana 
example. At our flagship park, the Lewis and Clark Caverns, the 
department told the legislature they wanted $880,000 to build a 
new visitor center rather than use $90,000 to overhaul the old 
one and they told us it was visitor demand. Well, we took it 
upon ourselves as the State Parks Foundation to go find out the 
base that they used for this information, and what we 
discovered was that 57 percent of the people who responded to 
their surveys were satisfied with what was there. 40 percent 
had no position. Only 3 percent wanted more development and the 
development they wanted was more trees in the campground. So we 
believe that it is wrong when you accept that the agencies tell 
you that the citizens are demanding more services. And when 
they want more developed services, such as developed 
campgrounds for RV's, we believe in Montana that that should be 
accomplished by private enterprise outside of our lands.
    Westerners find fees to access their own land appalling. 
You are witnessing the backlash. People quit going. It is 
because our heritage is being taken away from us. Fees affect 
the people who live closest to the land. In many cases, that is 
people on low income. What do they do? They have to quit going. 
By putting fees on, what you are doing is taking away a great 
American freedom, freedom to access our own lands.
    We would encourage you not to concede this tax and spend 
policy to the bureaucracy, but rather keep it in your hands.
    In Montana we found a solution. One, we have said no 
development may take place without significant public review 
during the entire process from the beginning. We do not want 
them to give us the finished plan and ask them to approve it.
    Second, we have said that that development must then be 
approved in the appropriations process specifically.
    And third, we have said that the elected policymakers are 
going to prioritize maintenance over development.
    This is an extremely inefficient tax collection policy. In 
Montana citizens did a study, along with the Department, on 
seven parks that the Department wanted to expand fee collection 
in. And it turns out they were going to get $114,000 in new 
revenue, but it was going to cost $94,000 to collect it. So, 
therefore, we got that stopped.
    We believe our public lands are for public enjoyment and 
use and it is the responsibility of Congress to fund it and 
that free access is an American freedom as old as this country.
    Thank you for allowing me to talk today.
    [The prepared statement of Mr. Raney follows:]

  Prepared Statement of Robert Raney, Executive Director (volunteer), 
                     Montana State Parks Foundation

    Mr. Chairman and distinguished members of the Subcommittee, thank 
you for the privilege of testifying before you today regarding the 
Recreational Fee Demonstration Program. I am Bob Raney, from 
Livingston, Montana. I am a Vietnam veteran, was a railroad conductor 
for 25 years, spent 16 years as a State Representative in the Montana 
Legislature, and am now the volunteer director of the Montana State 
Parks Foundation.
    The Montana State Parks Foundation is a small, non-partisan group 
of dedicated citizens who have spent the last 15 years analyzing, 
developing, and proposing legislative policies and budgets for 
Montana's 41 state parks and 320 fishing access sites.
    It is fair to say that much of what we have done has been contrary 
to the wishes of the Montana Department of Fish, Wildlife and Parks, 
but has been very well accepted by Montana residents and the 
legislature.
    The policy debates we have in Montana are much the same as those 
being debated under the Fee Demo program, although the solutions we 
have implemented are considerably different.
    For this committee's use, I shall discuss constructive examples of 
policy alternatives, without the use of access fees, for running and 
funding government agencies that deal with public recreational lands.
    In Montana, our main goals have been to:

  <bullet> maintain and restore the public's recreational resources
  <bullet> provide free public access so all citizens can enjoy those 
        resources
  <bullet> restrain government competition with taxpaying, private 
        business
  <bullet> keep development, fee, and budget decisions firmly in the 
        hands of elected policymakers and the public they represent

    Before I get into the specifics, let me make a very basic point 
that is often missed in discussions about public recreational 
resources. It is important to remember that the nation's recreational 
lands are owned by all Americans. All too often, the various agencies 
that administer these lands forget that vital point, and act as if 
they, not the public, own the land. They do not.
    We, the American people, own the land--and it is through our 
elected representatives that the policies and budgets for these lands 
should be decided. Otherwise, the bureaucracy makes the decisions, and 
we have seen where that leads.

         THE SPIRAL OF GOVERNMENT GROWTH--AND FEES TO FUND IT: 
                          MONTANA'S EXPERIENCE

    In 1989, the Montana Legislature first authorized the Montana 
Department of Fish, Wildlife and Parks to collect entrance fees to 
lands under its control. The department immediately implemented $2 
access fees to many areas and soon, the Parks Division began to raise 
the fees and implement them at more and more places.

  <bullet> Between 1990 and 2003, no new parks were added to the 
        system. Yet, the number of Parks Division employees rose 
        dramatically and a former division administrator bragged of 
        ``doubling his budget.''

    During that time, new visitor centers, public showers, 
amphitheaters, and lots of educational and interpretive programs, roads 
and other developments were added. Simultaneously, the Parks Division 
continued to increase employment and expand fees--purportedly to 
improve maintenance.
    The Parks Division increased access fees to $5, but maintenance 
continued to lag. Many toilets across the state were filthy--and I, 
personally, visited each of them. Meanwhile, stream banks eroded away, 
boat ramps did not reach the water, and noxious weed infestations on 
the public lands grew wild and eventually spread to adjoining private 
lands.
    Of course, all the new developments resulted in additional 
operations and maintenance costs and they suffered increased vandalism. 
The Parks Division, falling back on ``The Washington Monument 
Syndrome,'' demanded more money and threatened to close parks, curtail 
maintenance, and sell off some units unless they got it. And, because 
visitation slows significantly outside of summer, many recreational 
areas are now closed for much of the year because the department cannot 
protect its developments from vandalism.
    It becomes a vicious circle: The more the government develops its 
public lands--the more maintenance is required--the more fees are 
imposed--the fewer number of people who can enjoy these special places. 
And in this circle, we lose our natural areas.
    By 1993, the legislature began to catch on to what we call ``the 
spiral of government growth'' being practiced by the Parks Division. 
The question was: ``What can we do about it?'' The Montana State Parks 
Foundation suggested some policy alternatives.
    The Primitive Parks Act, (See attachment 1*) which was signed into 
law in 1993 by Governor Marc Racicot, required that the state's least 
developed parks--about one-third of the total--be left that way. By 
maintaining the ``primarily natural and undeveloped'' character of 
these parks, the impetus for system-wide development--and concurrent 
expense--was eliminated. The legislation banned development beyond the 
functions necessary to accommodate the basic public needs such as 
maintenance of toilets, picnic tables, fire rings, trails and weed 
control. Removing these parks from the ``development spiral'' also 
helped to meet the demand of those members of the recreating public who 
enjoy more natural surroundings.
---------------------------------------------------------------------------
    * Attachments 1 and 2 have been retained in the subcommittee files.
---------------------------------------------------------------------------
    More importantly to this discussion, however, is that because the 
initial high and escalating long-term costs of development and 
maintenance were avoided, the agency was prohibited from charging 
access fees for Montana residents. Why did they choose to leave it 
free? It was easily determined through budget analysis that the 
citizens already provided plenty of money for basic maintenance of the 
entire recreational lands system through general taxation allocations.
    In the meantime, the agency continued to spend millions on 
development of other state recreation lands using federal dollars. 
Since federal guidelines make it difficult to use federal dollars for 
maintenance of existing facilities, they encourage constant growth--
something we simply cannot afford. This federally provided development 
money increased the need for maintenance, which increased the need for 
more employees and added other costs, which increased the demand for 
fees--not just fees for services provided by the development, but fees 
to merely walk upon the land.
    The legislature responded in 1997 by putting boilerplate language 
in appropriation bills to require the department to discontinue most 
development until maintenance was caught up. However, the agency used 
federal guidelines and other fund manipulations to get around the 
budget language. The Parks Division used its own language to decide 
whether a project was a basic need or a capital improvement. 
Maintenance continued to lag, development persisted, and the Parks 
Division increased fees again and again. The legislature tried to 
respond once more.

    THE GOOD NEIGHBOR ACT--PRIORITIZING MAINTENANCE OVER DEVELOPMENT

    In 1999, the legislature and Governor Racicot responded by passing 
statutes prioritizing maintenance over development and defining 
maintenance to prevent department abuse of the maintenance policy. (See 
attachment 2) Yet, because of language attached to federal funds, the 
department continues to use Wallop-Breux/Dingle-Johnson money for 
development. (The federal guidelines restricting state use of federal 
money for maintenance continues to be a problem for states seeking to 
control agency-initiated growth.)
    Fees increased again in 2002.
    The 2004 legislature finally decided enough chicanery was enough 
and abolished fees to access recreational lands and waters for Montana 
residents and established a voluntary park contribution on vehicle 
registration.

                    DO THE AGENCIES NEED THE MONEY? 
                JIGGING THE FACTS TO SUPPORT HIGHER FEES

    It would be great to believe that agencies always paint a true 
picture of public demand and funding needs. But an in-depth case study 
at just one Montana park showed that isn't always so.
    At the Lewis and Clark Caverns State Park, Montana's flagship park, 
the agency proposed spending $880,000 to build a new ``visitor contact 
center'' at the park entrance rather than $90,000 to upgrade an 
existing structure. In its Environmental Assessment, the agency claimed 
it had decided to build this new development based on ``public 
comments.''
    The Montana State Parks Foundation obtained a copy of the ``Visitor 
Survey Report'' and the original citizens comments on which this 
decision was based, to see what comments the public made.
    The results were surprising and disappointing. Contrary to the 
agency's contention that the public demanded a new visitor center, 58 
percent of those surveyed were ``satisfied with current facility,'' 40 
percent were ``neutral or no position'' and only 3 percent (out of 343 
surveyed) were ``dissatisfied.''
    The entire ``plan'' was based on fictional ``needs'' of the public. 
Throughout the survey results, it was obvious that people were happy 
with the park as it was and there was NO pressure whatsoever for more 
development. In fact, the single improvement sought by the majority of 
respondents was to have the agency plant more trees in the camping 
area.
    While it is no doubt embarrassing to catch a government agency in 
such a fabrication, it is by no means an isolated incident. Throughout 
the last 15 years, the Montana State Parks Foundation repeatedly has 
exposed similar efforts that misled policymakers and the public into 
believing there was either great public pressure or ``need'' for 
expensive developments and, of course, additional staff. It may be 
virtually impossible to inspect every agency development proposal with 
this degree of detail, but to think, even for a moment, that this isn't 
occurring in federal bureaucracies would be a grave error in judgment.

      DON'T CEDE CONGRESSIONAL POWER OR OVERSIGHT TO BUREAUCRACIES

    The basic concept of Fee Demo, giving agencies authority to charge, 
collect and utilize fees with virtually no Congressional oversight, is 
a fatally flawed policy. It gives government agencies the power to tax 
and spend, which is reserved to the elected representatives of the 
people who are, by virtue of every election, accountable to the voters.
    Ceding taxation and budgeting power to the ``faceless bureaucracy'' 
will ensure continued widespread and costly abuses by agencies; endless 
and even more costly court struggles; and the dangerous isolation of 
Congress from the basic information necessary to make good, justified 
policy decisions. And, the people lose a great freedom-free access to 
public land.

     WESTERNERS DO NOT TOLERATE FEES TO MERELY ACCESS PUBLIC LANDS

    The whole concept of charging access fees to public lands is 
appalling to most people in the West, and, as you are aware, there has 
been a huge backlash from the public concerning fee demo, the worst of 
which is that people simply quit going to public lands. We experienced 
the same public response in Montana. Citizens were angered by the state 
government's policy of marketing public land access to the very people 
who own the lands. Government was stealing our heritage and selling it 
back to us.
    It is common knowledge that the people most affected by access fees 
are those who live closest to the lands. In Montana, where the income 
level is rock bottom, people quit going. At some parks, the Parks 
Division had to eliminate the access fee to get people to come back. A 
quote from an editorial in The World Newspaper, Coos Bay, Oregon, Sept. 
18, 2002, emphasizes the point:

        The fee (for access) mostly hurts local residents, poor local 
        residents. These are the people most likely to visit the South 
        Coast's popular forest trails over and over again. These are 
        the people who can't afford to vacation far from home. These 
        are the people already paying to subsidize those lands through 
        property taxes and income taxes that maintain the roads, other 
        surrounding infrastructure and even law enforcement--all of 
        this in a region plagued by unemployment, underemployment and 
        chronically low wages.

    The very concept of requiring people to pay to access their own 
land is reprehensible in the West. It is no longer our land when we 
must pay the government just to access it!

                               A SOLUTION

    There is a solution to the fiscal problem that has created the 
demand for access fees by government agencies. We have found it in 
Montana.

  <bullet> No development may take place without it first going through 
        a significant public review process.
  <bullet> The development must be approved in the legislative 
        appropriation process, which helps eliminate uncontrolled 
        bureaucratic growth.
  <bullet> Policymakers prioritize government spending between 
        maintenance and development. Development can no longer be 
        supported by use of access fees.

                THE SENATE SHOULD SAY NO TO ACCESS FEES

    You have heard over and over how inefficient access fee collection 
is as a form of tax collection policy. When a Montana committee 
examined a Parks Division proposal to expand fee collection to seven 
additional areas, the numbers showed just how inefficient it really is. 
Appendix H of the Montana Futures Report of 2002 showed the following:

  <bullet> In the chosen 7 parks, increased annual revenue collections 
        are to be $114,000.
  <bullet> Necessary capital costs to carry out this pilot project are 
        $21,000. The project requires 4.09 new FTE at a cost of $94,000 
        per year.

    As you can see, we tax the citizens $114,000 and get $20,000 in 
profit (after capital costs are paid) from this new tax to spend on 
whatever the agency chooses. The Montana State Parks Foundation 
believes this is a terrible return on citizens' money and is simply an 
employment program based on increased taxation of Montana citizens. 
There is no reason to doubt that if a similar cost-benefit study of the 
Fee Demo program was conducted by independent analysts, it would reveal 
that collection, administrative, enforcement, and legal costs are 
likewise consuming the lion's share of the revenue generated by the 
imposition of the new access fees.
    This Committee has repeatedly heard about fostering the economic 
value of our parks and increasing the ``value-added experience'' of 
visitors. The Montana State Parks Foundation views this as bureaucratic 
language for development-based policy supported by fee-based 
management. We believe our public lands are for public enjoyment and 
use, and free access is guaranteed by our ownership.
    The Montana State Parks Foundation is strongly opposed to fees to 
merely access and walk upon our own public recreational land and to 
access our public waters. Free access to public land is a freedom as 
old as this country.
    I thank you for the opportunity to comment and look forward to 
answering any questions you might have.

    Senator Craig. Well, Bob, thank you very much for that 
testimony.
    Now let me turn to our last panelist of this panel, Ed 
Phillips, Americans for Forest Access, from Big Bear City, 
California. Welcome.

 STATEMENT OF EDWIN PHILLIPS, AMERICANS FOR FOREST ACCESS, BIG 
                         BEAR CITY, CA

    Mr. Phillips. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. My name is Edwin Phillips. I have 
lived in the San Bernardino Mountains of California most of my 
67 years. I am board chairman for Americans for Forest Access, 
a 501(c)(3) nonprofit corporation dealing mainly in access 
issues to public lands. We are made up of the leaders of other 
recreation organizations and users of the public lands.
    I have not been as deeply involved in the fee demo program 
as others testifying here today, with the exception of 
attempting to find out where the San Bernardino National Forest 
has spent the fee demo moneys. Like all other users of public 
lands, I have been aware of the problems plaguing the fee demo 
program from the start about 7 year/8 years ago. These problems 
seem to get worse year by year and have been driving a wedge 
deeper between the agencies and the public. The hostilities are 
on both sides and will remain there as long as the fee demo 
program exists and will cause problems for fee programs in the 
future.
    The problems with the fee demo program seem to cover every 
aspect of the program. There was no real effort to sell fee 
demo to the public at its inception. Fee demo was dumped on the 
public like a can of worms.
    Collection of fees, as shown in appendix 1 and 2 of the GAO 
report attached, show the costs of collections are next to 
impossible to track in the agencies or their vendors. As much 
as two-thirds of the operating costs of collections goes 
unreported. The cost between administration and collections are 
estimated to be as high as 50 percent of the fees collected in 
many of the areas.
    The standards for establishing fee collections and 
enforcement exist at the Department of the Interior and the 
Department of Agriculture. By the time the fee demo hits the 
district offices, it appears in many cases the process has been 
lost. It is charging what the traffic will bear and justifying 
the high fee costs later by filling in a cost at a later date. 
And they tell the public what a deal they are getting from the 
fee demo because it pays only part of the costs to manage these 
areas, not to mention the taxes of the same people that are 
forced to purchase these passes that go to make up that 
difference.
    Abuses in collections, appendix 3, signed affidavits. An 
80-year-old disabled grandmother stopped to use a handicap rest 
room at a public U.S. Forest Service campground while traveling 
through the forest. A ranger approached her family as they 
waited for her and asked to see their Adventure Pass. Not 
having one, they were told they would have to purchase a day 
use permit for $5 because their mother was using the 
facilities.
    Gail Downs, a retired city secretary, wrote you a letter, 
appendix 4, about the experiences since fee demo started, how 
they have been treated by the rangers of the San Bernardino 
National Forest. For many years I have known this lady and I 
have never heard her say anything bad about anybody. Gail wrote 
you this letter instead of her husband. If Jay had written the 
letter, I could not use it today. When Jay told me about the 
second incident, he was so angry he could hardly speak.
    Appendix 5. This is the worst case scenario. It happened at 
the Imperial Sand Dunes, California to Bryan Boyd. I am not 
going to go into who said what to whom. We will let the courts 
decide that. But we know we have a $6.5 million lawsuit, a 19-
year-old with spinal cord injuries who has got $70,000 in 
doctors' bills. The problem is the rangers should never have 
let the incident over a day use pass escalate into violence. 
There are other ways to handle this type of a situation.
    Number 6. Ladies and gentlemen, due to the time 
constraints, I have put my personal statement as an attachment 
with signed documentation.
    There is a solution to fee demo. Let it die in 2006 and 
over the next 2 years, go back to fully funded line item 
budgets. The majority of the funds already exist to pay for 
these changes today.
    As it was 50 to 70 years ago, we paid for everything by the 
acre. Today we still pay the agencies by the acre to manage our 
lands. We no longer have logging, mining, ranching, recreation 
on every acre of land as it was in the past. Today we have 
millions of acres of roadless wilderness and millions more 
acres proposed for wilderness. It is time to move to the 21st 
century.
    Since we are only supposed to monitor wilderness and let 
nature do its thing, the job can be done quickly by satellite 
for a fraction of the cost. You now move the funds from the 
wilderness areas and add them to the managed lands, reinstate 
the funds that Congress withheld 8 or 9 years ago, using a 
mandated head count for accuracy and using the head count to 
adjust funding to the heavier used areas. This way the agencies 
will have ample funding to adequately maintain a well-trained 
staff dedicated to managing and maintaining our public lands, 
as well as helping the visitors. Then and only then will the 
land managers and rangers regain their respect.
    This is not just an off-highway vehicle issue. Mom and pop 
coming to see the flowers first have to purchase a pass before 
accessing public lands.
    Thank you, gentlemen, for having me testify here today. If 
there are any questions, I would be more than happy to answer 
them.
    [The prepared statement of Mr. Phillips follows:]

  Prepared Statement of Edwin Phillips, Board Chairman, Americans for 
                             Forest Access

    Dear Mr. Chairman and Distinguished Members of Subcommittee, my 
name is Edwin Phillips. I have lived in the San Bernardino Mountains of 
California most of my 67 years. I am Board Chairman for Americans for 
Forest Access (AFFA) A 501 C3 Nonprofit Corporation dealing mainly in 
access issues to public lands, we are made up of leaders of other 
recreation organizations and users of public lands.
    I have not been as deeply involved in the fee demo program as 
others testifying here today; with the exception of attempting to find 
out where the San Bernardino National Forestry spends the Fee Demo 
Monies. Like all other users of public lands, I have been aware of the 
problems plaguing the fee demo program from the start 7 years ago. 
These problems seem to get worse year by year and have been driving the 
wedge deeper between the agencies and the public. The hostilities are 
on both sides and will remain there as long as the fee demo program 
exists and will cause problems for fee programs in the future.
    The problems with the fee demo program seem to cover every aspect 
of the program.
    There was no real effort to sell fee demo to the public at its 
inception. Fee demo was dumped on the public like a can of worms.
    Collection of fees as shown in Appendixes 1 & 2* of the GAO report 
(attached) shows the costs of collections are next to impossible to 
track in the agencies or their vendors, as much as \2/3\ of the 
operating costs of collections go unreported. The cost between 
administrations and collections are estimated to be as high as 50% of 
fees collected in many areas.
---------------------------------------------------------------------------
    * The appendixes have been retained in subcommittee files.
---------------------------------------------------------------------------
    The standards for establishing fee collections, and enforcement 
exists at the department of interior and Department of Agriculture. By 
the time fee demo hit the district field offices, it appears in many 
cases the process had been lost and charging what the traffic will bear 
and justifying the high fee costs later by filling in the costs at a 
later date and tells the public what a deal they are getting with the 
fee demo because it pays only part of the costs, to manage the areas 
not do mention it's the Taxes of the same people that are forced to 
purchase these passes that go to make up that difference.

                         ABUSES IN COLLECTIONS

(Appendix 3 signed letter)
    An 80 year old disabled grandmother stopped to use a handicapped 
restroom at a public USFS camp ground while traveling through the 
forest. A ranger approached her family as they waited for her and asked 
to see their adventure pass (fee demo) not having one he told them they 
would have to purchase a day use permit for 5 dollars because mother 
was using their facilities.
(Appendix 4 signed letter)
    Gail Downs a retired city secretary wrote you a letter about their 
experiences since fee demo started. How they have been treated by the 
rangers of the San Bernardino National Forest services. For the many 
years that I have known this lady I have never heard her to say 
anything bad about anybody. Gail wrote this letter instead of her 
husband Jay. If Jay had written the letter I couldn't have used it here 
today. When Jay told me about the second incident he was so angry he 
could hardly speak.
(Appendix 5)
    The worse case scenario happened at the Imperial Sand Dunes of 
Calfomia to Bryan Boyd. I am not going to get into who said what to 
whom, we will let the courts decide on that. What we know we have is a 
5.6 million dollar law suit, a 19 year old spinal cord injuries and 
70,000 dollars in Doctors bills. The problem is the rangers should have 
never let the incident over a day use pass (fee demo) escalate into 
violence. There are other ways to handle this type of situation.
(Appendix 6)
    Ladies and Gentlemen due to time constraints I put my personal 
statement as an attachment with signed documentation.
    There is a solution for fee demo let it die in 2006 and over the 
next two years go back to fully funded line item budgets. The majority 
of the funds already exist to pay for these changes. Today as it was 50 
to 70 years ago; we still pay the agencies by the acre to manage our 
lands. We no longer have logging, mining, ranching or recreation on 
every acre of land as it was in the past.
    Today we have millions of acres of road less wilderness and 
millions of more acres proposed for wilderness. It's time to move into 
the 21st Century, since we are only supposed to monitor wilderness and 
let nature do its thing. The job can be done quicker by satellite for a 
fraction of the cost. You now move the funds from the wilderness areas 
and add them to managed lands. reinstate the funds that congress 
withheld gfrom the agencies 8 to 9 years ago. Using a mandated head 
count for accuracy, using thishead ocunt to adjust funding to heavier 
used areas. This way the agencies will have ample funding to adequately 
maintain a well trained staff dedicated to managing and maintaining our 
public lands as well as helping the visitors.
    Then and only will the land managers and rangers regain their 
respect.
    This is not just an off highway vehicle issue. Mom and pop coming 
to see the flowers first have to purchase a pass before accessing 
public lands.
    Thank you Ladies and Gentlemen for having me testify here today if 
there are any questions I would be more than happy to answer them.

    Senator Craig. Well, Ed, thank you very much for those 
observations and comments. We appreciate your testimony for the 
record.
    Let me ask some questions of all you because many of you 
brought up some very excellent points as we deliberate this 
issue.
    Commissioner, let me turn to you first. I noted you call 
for a collaboration between the counties and the agencies on 
recreation fees and for maintaining the 100-year-old compact 
between the Federal Government management agencies and the 
counties. I salute you for that. That is something that many 
are beginning to forget as we disconnect, if you will, the 
resource and the land from the adjoining communities of 
interest, and by that I mean, not organized communities of 
interest, but actual communities of people living near. I 
believe that is what Gifford Pinchot was talking about.
    I am told that Skagit County has both a title II resource 
advisory committee and takes title III funding from the county 
schools legislation. You spoke to the Craig-Wyden bill. This is 
a question that is kind of a reality check because I think we 
oftentimes are looking for alternatives now in lieu of what has 
changed. I want to make sure that you and I have a similar 
understanding.
    Do you agree that the more timber sales that your title II 
resource advisory committee would recommend and approve will 
generate significantly more revenues and economic activity than 
your county's share of a recreational fee might collect?
    Mr. Anderson. Oh, absolutely. There is no question. It is 
how do we get there because the one big difference is--and I am 
sure you know this, Senator--the local jobs that are created 
and those paychecks are spent right in the local community. 
Even though the safety net was a very welcome thing for the 
counties and we are deeply appreciative of that to restore 
funding for our local schools and roads, the safety net did not 
restore the 3,600 jobs we lost in Skagit County off the Federal 
forests. And we have these communities located throughout the 
county that were there for the sole purpose of the resource. So 
certainly the Healthy Forests Initiative and a regeneration of 
economic vitality in that area would do much more than the 
recreation fees. No question.
    Senator Craig. Has the title II resource advisory committee 
recommended any timber sales----
    Mr. Anderson. No, they have not.
    Senator Craig [continuing.] Or done any studying as it 
relates to EIS's?
    Mr. Anderson. I am sorry, sir.
    It is primarily recreation type projects, and we are 
partnered with Whatcom County. We partnered with them on this 
resource advisory committee out of concern for the staffing 
levels for the Forest Service.
    The reason I mentioned that was to show the intent. While 
as you well know--you were the author of it--was this attempt 
to restore, I think, a line of communication between the local 
communities and the Forest Service. Frankly, the reason I threw 
in the little addendum about the roads is because that does not 
happen, and to a large degree, it really affects what happens 
to not only urban interface fire fighting and a lot of these 
issues that we are concerned about, but it also dampens 
opportunity.
    I authored a bill 2 years ago on the State level, H.R. 
4316, that allows local county governments to utilize county 
road funds to partner with other jurisdictions. So there are 
some opportunities there if you had a collaboration on some of 
these roads that are vital to the community as far as access 
for partnerships.
    But also my fear is with the Healthy Forests Initiative 
that the limitations on these makes it difficult to access a 
lot of these lands to carry out the Healthy Forests Initiative. 
These lands were very much passive recreation for a lot of our 
elderly people that are very localized. They do not come from 
out of the area. And I think the comments about the local 
people are right on. They live there because they enjoy the 
lands. That is where they recreate.
    Senator Craig. Well, I thank you for those comments. I must 
tell you that during the aggressive road closure period of the 
last administration, I was terribly frustrated that you would 
close roads, on one hand, and be advocate of recreation on the 
other. It seemed like you were locking the gates but 
encouraging people at least to go to the gate. Especially in 
localized recreation, those accesses are critically important.
    Mr. Anderson. One other concern in relationship to that is 
once these roads are closed, you end up with additional 
wilderness areas. You know, the definition of 1,000 acres, you 
know, roadless area--you end up with these roadless areas. That 
further impacts.
    I really appreciated your statement about you did not want 
these run like parks. My local jurisdiction there in the Sedro-
Woolley, the Mount Baker and Snoqualmie Forest, is actually 
housed in the same building with the national parks. They are 
housed in the same building and the policies are not 
dissimilar. That needs to change to some degree with the 
recognition that they have a broader scope of application than 
just recreation.
    Senator Craig. Yes. Well, thank you very much.
    Carl, would you support a recreation users fee that 
required all funds be expended on the maintenance of the site 
where they were collected?
    Mr. Wilgus. Yes. Mr. Chairman, I think that that works. 
Obviously, we have seen in some of the other areas where a 
portion of that is used for other areas within the region or 
within the forest that may not get the usage.
    An example would be--one of the things we mentioned was 
information dissemination. Brochures and materials that talk 
about treading lightly and about appropriate use of the public 
lands do as much to preserve and protect those lands as you 
would get in putting back in user fees with additional 
facilities or trail maintenance. So in some instances, the 
benefit or the value of money collected in one area can 
actually support other areas in and around the region. But in 
general, yes, we would be comfortable with that.
    Senator Craig. I am wondering what the State of Idaho does 
when someone pulls off the highway at a State-run rest stop or 
campground to use the bathroom facility. I think that we had an 
example with our last witness. Do you think it is reasonable to 
charge a $5 day use fee to those that are just stopping for a 
short period of time to utilize the facility and then, in 
essence, head on down the road?
    Mr. Wilgus. Well, to a large extent, Mr. Chairman, we are 
all paying for that facility whether or not we use that rest 
room because the Department of Transportation is paying for the 
maintenance and operation of that facility and we all pay that 
expense by traveling those highways. So you get a chance to pay 
for it without even using the facility as well as the person 
who does.
    I think therein lies obviously the tough question of where 
is the additional incremental value to the individual and what 
is he willing to absorb and spend for that service versus what 
is of greater societal benefit. I think, again, the Forest 
Service and the BLM are taking those ideas very much to heart 
when they look at it, and that is why the issues of scenic 
overlooks are not looked as a fee demonstration issue because 
that does have general societal value, where the additional 
incremental value, once you stay at a campground, to charge an 
increased fee on that does make some level of sense. So I think 
those kinds of rules of reasonableness are probably the 
important ones to apply. Obviously, in dealing with the Federal 
Government, sometimes reasonableness is a hard thing to 
understand.
    Senator Craig. Well, you have spoken the right words there. 
I have no disagreement with that approach.
    Sue, what in your mind is an equitable fee? How do you 
measure that?
    Ms. Bray. First of all, I think it has to be measured 
locally because it really depends on what you are getting for 
the money. What you may be getting in a camping experience at 
Yosemite is a completely different experience than you would 
have out on the desert in California. So to just tell you an 
equitable fee is $10 I cannot do that.
    Senator Craig. I think you have approached my next question 
then, and that is, how do you establish those guidelines for 
setting the levels charged?
    Ms. Bray. Well, we really believe that it needs to be done 
at the local level and there needs to be input from the users, 
the people who are paying the fees. That is why we are really 
encouraging the use of the RAC's to establish what those 
equitable fees would be because they are the people that know.
    Senator Craig. Can you give me some ideas on what your 
members would consider to be a convenient collection system?
    Ms. Bray. Oh, gosh. Probably more automated collection 
systems would make a lot more sense. I can get a debit card at 
Starbucks and go in and use the card over and over again and 
not have to deal with spending $2.50 for my coffee every day. 
There are ways for this to be done.
    Our members as a whole seem to feel pretty comfortable with 
user fees when they understand how they work and what they are 
going for. When we do hear from people, it is when a ranger, 
for example, is trying to collect $6 and when the person asks 
what it is for, they say they do not know, but you should write 
your Congressman if you do not like it.
    Senator Craig. And they do.
    Ms. Bray. And they do, yes. You have probably heard from 
them.
    [Laughter.]
    Senator Craig. Yes, I have. And then I go try to find that 
ranger.
    [Laughter.]
    Ms. Bray. Precisely.
    Senator Craig. Well, I thank you very much. I noted that 
you added on the stipulation that users fees should be 
voluntary. Would you or the other members of the American 
Recreation Coalition support a mandatory recreation fee payment 
system?
    Ms. Bray. Yes, we would support a mandatory payment system. 
That is what we would encourage you to do. But if you are 
saying determine the fees, that is where we think it needs to 
be at the local level.
    Senator Craig. Thank you, Sue.
    Bob, it sounds like you have been round and back again on 
this issue, and I can appreciate the obvious frustrations you 
had as a legislator, an observer, and now a direct participant 
in trying to shape fees and results.
    If you had a recreation fee that required that funds be 
spent only on maintenance, do you think more people would be 
supportive of that kind of program?
    Mr. Raney. No, sir, certainly not in the West. It just 
comes right down to the basic concept that that is our land and 
it belongs to all Americans. All Americans are responsible for 
the maintenance of that land.
    It is a little different when it comes to the developments. 
We would like to see the development money stay in the area 
where the development is. So if they build a museum, then of 
course we would like the fees that are collected at that museum 
to stay at that museum. But for access, no.
    Senator Craig. Then I think I would probably guess your 
answer as it relates to the West Slope No Fees Coalition and 
their attitude toward fees in general that went for land and/or 
maintenance.
    Mr. Raney. I do not know exactly what the West Slope No 
Fees Coalition's position is, so I can only relay what our 
experience and position is in Montana.
    Senator Craig. That is fair enough. Well, I thank you very 
much for that testimony.
    Mr. Raney. I do have a little bit more information I would 
like to enter in the record.
    Senator Craig. Please do, and we will make that a part of 
the record. We appreciate that.
    Mr. Raney. Thank you.
    Senator Craig. Ed, you have concerns about the amount of 
fees collected. Would you support an advisory committee 
approach that helped set the fee levels and monitor how the 
revenues are spent?
    Mr. Phillips. No, sir. I cannot support a fee of any type 
at this time because it is discriminatory. It eliminates, I 
would say, about 25 percent of the population that are the 
working poor, the retired. You try to live on $1,100 a month 
Social Security sometime and see if you have got any money left 
for an Adventure Pass.
    In our area all the improved areas, campgrounds and such, 
have been leased out to concessionaires. So the Adventure Pass 
came about, which is a parking permit. The way that this has 
been administered and everything and also on part of the BLM, 
the way they have assessed the fees, they have demonstrated to 
us that they are not capable of managing their own fees.
    And we feel that Congress and the Senate should set down 
mandated rules, amounts, and make them do a line item budget 
and go back to--well, basically this is the way it will be done 
and take the rangers out of the collection area which will end 
a lot of the hostilities and the problems that are created by 
fee demonstration programs and such because these people are 
not gate tenders. They are out there to manage our public 
lands.
    Senator Craig. As I mentioned, the San Bernardino had 
implemented a users pass system before the 1996 authorization 
for the recreation fee demonstration program. The difference 
was that under that program the receipts went to the U.S. 
Treasury. Are you suggesting that if we do away with the 
recreation fee demonstration program, that we should also do 
away with the Land and Water Conservation Trust authority to 
collect fees at sites?
    Mr. Phillips. I do not know enough about that particular 
part of it to make an intelligent comment. I just cannot buy a 
fee because of what has been demonstrated over the last 7 or 8 
years and the problems it has caused and the hostilities and 
everything else and the people it has eliminated from the 
lands.
    Senator Craig. Well, Sue and gentlemen, thank you very much 
for your testimony today and your willingness to travel and to 
speak to this issue. It is of concern to all of us. We search 
to find adequate resources for these public land agencies, 
while trusting that we can cause them to be well managed and 
efficiently managed and that dollars be used wisely.
    At the same time, we are in real conflict at this moment in 
funding as it relates to the fire scenarios that our forests 
are now experiencing and the ability of the Forest Service, as 
we have allowed them to borrow from funds to fund fires and 
then the Congress not replenishing those resources. So we are 
ultimately in a funding conflict not unlike the one that I 
suggested would occur, and when I made that suggestion it was 
about 5 or 6 years ago as we watched the Forest Service 
finally, after all of its history, plummet into the red with 
the demise of the timber program. We are now at that crossroads 
and Congress is struggling mightily with resources and trying 
to control deficits and at the same time, figuring out which is 
fair and equitable.
    And I think Senator Alexander put it quite well. We in the 
West sometimes look at these lands considerably differently 
than some do here in the East where these lands are limited in 
nature and numbers of people who desire to use them or access 
them are substantially larger.
    So we will sort through that. We did not think it was 
appropriate that we simply move toward reauthorization or 
allowing the Appropriations Committee just to move forward 
without some fairly in-depth look at these programs in an 
attempt to shape them in a way that has some of the safeguards 
in them and some of the controls that many of you have spoken 
to today.
    So, again, we thank you very much for your testimony and 
your time.
    As I mentioned in my opening statements, the committee 
record will stay open for a period of time to accept additional 
information.
    [The letter of Mr. Staker follows:]

                            Board of Commissioners,
                                     Bonneville County, ID,
                                    Idaho Falls, ID, April 8, 2004.
Jerry Reese,
Forest Supervisor, Caribou-Targhee National Forest, 1405 Hollipark 
        Drive, Idaho Falls, ID.
    Dear Jerry: It has come to our attention that the Forest Service 
and BLM fee demo program is currently being reviewed by Congress to 
determine whether the program will be authorized permanently. Negative 
publicity about some particular fee demo projects around the Nation has 
raised the possibility that the program will not be authorized 
permanently and in fact, may be terminated.
    Termination of the program would be of great concern to the 
Bonneville County Commission because the program has been a great asset 
to our partnership in management of the facilities along the South Fork 
of the Snake River. The South Fork program has been in effect for 
several years and is supported by users and agency partners alike. 
Funding received from the Fee Demo program has provided both 
construction and maintenance of launch and takeout facilities along the 
South Fork. The funds are allocated through a joint committee and the 
fees have virtually all gone back into facilities that support 
recreation by Bonneville County citizens and a much broader public.
    Our understanding is that there have been public complaints 
regarding the fee program in some locations. Perhaps some of the 
unpopular programs need to be redesigned, but locally we are hearing no 
negative comments about the South Fork fee program. The local public 
can see the direct benefits of the money that they invest.
            Sincerly,
                                                Lee Staker,
                                                      Commissioner.

    Senator Craig. With that, the subcommittee will stand 
adjourned. Thank you all.
    [Whereupon, at 4:22 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

 Responses of the Forest Service to Questions From Senator Gordon Smith
    Question 1. You stated that the Forest Service has seen a dramatic 
increase in visitation to National Forest lands. Does the Forest 
Service have any statistics on what types of recreational experiences 
people prefer within the National forest system? For example, can you 
tell me how many people, as a percentage of all visitors, recreate in 
legally-designated wilderness areas?
    Answer. The Forest Service has a National Visitor Use Monitoring 
(NVUM) project that provides statistically reliable estimates of 
recreation and related visitor use on National Forests throughout the 
United States. Based on national participation data, the top five 
activities in which Forest Service visitors participated on a National 
Forest include: 1. viewing natural features (53.4%); 2. relaxing 
(40.2%); 3. hiking/walking (39.6%); 4. viewing wildlife (27.9%); and 5. 
driving for pleasure (23.7%).
    Out of 214 million visitors, 13 million or approximately 6% of 
National Forest visitors stated they recreate in legally designated 
Wilderness areas.
    Question 2. How much of the National Forest visitation occurs in 
those areas within the system that have enhanced recreation facilities, 
or at least basic amenities?
    Answer. The 2003 NVUM project data indicate that out of 214 million 
visitors the Forest Service received 256 million visits to recreation 
sites or areas. In other words, for each person visiting a National 
Forest, that person visited, on average, 1.2 Forest Service recreation 
sites. The Forest Service does not have data to compare the number of 
visitors to recreation fee demonstration sites versus visitors who 
visit a recreation site that is not a part of the Recreational Fee 
Demonstration Program.
    Question 3. Have any of the legally-designated wilderness areas 
administered by the Forest Service had to reduce or restrict public 
access, or move to an entrance permit system in order to meet the 
Service's solitude guidelines?
    Answer. Out of the 406 Wilderness areas that are part of the 
National Forest System, 18 require a mandatory permit system to meet 
solitude guidelines and to mitigate resource damage as a result of 
recreation use. The majority (96%) of Forest Service Wilderness areas 
are not managed through a permit system.
    Question 4. Do wilderness areas have to comply with the 
requirements of the Americans with Disabilities Act?
    Answer. Yes, the compliance requirements for wilderness areas are 
detailed in the Americans with Disabilities Act, Title V, Section 
507(c) as follows:

                    FEDERALLY DESIGNATED WILDERNESS

    ``(1) IN GENERAL--Congress reaffirms that nothing in the Wilderness 
Act prohibits wheelchair use in a wilderness area by an individual 
whose disability requires its use. The Wilderness Act requires no 
agency to provide any form of special treatment or accommodation or to 
construct any facilities or modify any conditions of lands within a 
wilderness area to facilitate such use.
    (2) Definition--for the purposes of paragraph (1), the term 
wheelchair means a device designed solely for use by a mobility 
impaired person for locomotion, that is suitable for use in an indoor 
pedestrian area.''


</pre></body></html>
